<html>
<title> - THE WASHINGTON METRO SYSTEM: SAFETY, SERVICE, AND STABILITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







      THE WASHINGTON METRO SYSTEM: SAFETY, SERVICE, AND STABILITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 21, 2010

                               __________

                           Serial No. 111-105

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform




      THE WASHINGTON METRO SYSTEM: SAFETY, SERVICE, AND STABILITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 21, 2010

                               __________

                           Serial No. 111-105

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
  63-139 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 21, 2010...................................     1
Statement of:
    Rogoff, Peter, Administrator, U.S. Federal Transit 
      Administration.............................................    16
    Sarles, Richard, Metro interim general manager, WMATA; Peter 
      Benjamin, chairman Metro Board of Directors, WMATA; Matt 
      Bassett, chair, Tri-State Oversight Committee; Jackie 
      Jeter, president, Amalgamated Transit Union Local 689; and 
      David Alpert, vice-chair, Metro Rider Advisory Counsel.....    54
        Alpert, David............................................   103
        Bassett, Matt............................................    91
        Benjamin, Peter..........................................    78
        Jeter, Jackie............................................    97
        Sarles, Richard..........................................    54
Letters, statements, etc., submitted for the record by:
    Alpert, David, vice-chair, Metro Rider Advisory Counsel, 
      prepared statement of......................................   105
    Bassett, Matt, chair, Tri-State Oversight Committee, prepared 
      statement of...............................................    93
    Benjamin, Peter, chairman Metro Board of Directors, WMATA, 
      prepared statement of......................................    81
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............   134
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................     9
    Jeter, Jackie, president, Amalgamated Transit Union Local 
      689, prepared statement of.................................    99
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, minority staff analysis..................    35
    Quigley, Hon. Mike, a Representative in Congress from the 
      State of Illinois, prepared statement of...................   133
    Rogoff, Peter, Administrator, U.S. Federal Transit 
      Administration, prepared statement of......................    18
    Sarles, Richard, Metro interim general manager, WMATA, 
      prepared statement of......................................    57
    Towns, Chairman Edolphus, a Representative in Congress from 
      the State of New York, prepared statement of...............     3

 
      THE WASHINGTON METRO SYSTEM: SAFETY, SERVICE, AND STABILITY

                              ----------                              


                       WEDNESDAY, APRIL 21, 2010

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room 2154, Rayburn House Office Building, Hon. Edolphus Towns 
(chairman of the committee) presiding.
    Present: Representatives Towns, Maloney, Cummings, 
Kucinich, Clay, Watson, Lynch, Connolly, Norton, Van Hollen, 
Cuellar, Issa, Mica, and Bilbray.
    Staff present: John Arlington, chief counsel--
investigations; Kwane Drabo, investigator; Brian Eiler, 
investigative counsel; Aaron Ellias, staff assistant; Adam 
Hodge, deputy press secretary; Carla Hultberg, chief clerk; 
Marc Johnson and Ophelia Rivas, assistant clerks; Chris Knauer, 
senior investigator/professional staff member; Phyllis Love, 
Ryshelle McCadney, and Christopher Sanders, professional staff 
members; Jenny Rosenberg, director of communications; Leneal 
Scott, IT specialist; Mark Stephenson, senior policy advisor; 
Ron Stroman, staff director; Lawrence Brady, minority staff 
director; Frederick Hill, minority director of communications; 
Adam Fromm, minority chief clerk and Member liaison; Kurt 
Bardella, minority press secretary; Stephanie Genco, minority 
press secretary and communication liaison; Howard Denis, 
minority senior counsel; and Mitchell Kominsky and Jonathan 
Skladany, minority counsels.
    Chairman Towns. The committee will come to order.
    Good morning, and thank you for being here.
    The Washington Metropolitan Area Transit Authority operates 
the second-largest rail transit system in the country, second 
only to New York's subway system. It also runs the fifth 
largest bus system. For a long time now, it has been a clean, 
reliable, and safe system, but there are indications that the 
system is deteriorating.
    On June 22, 2009, a Metro rail train slammed into another 
train near Fort Totten Station. Nine people were killed and 80 
were injured. It was the worst accident in Metro's history. In 
January of this year two maintenance workers were killed as 
they worked on the tracks. In total, 15 people have lost their 
lives on the Metro rail system over the past year. Something 
clearly is wrong.
    Earlier this year, Senator Mikulski asked the Federal 
Transit Administration to audit its safety system. The Tri-
State Oversight Committee [TOC], the FTA found serious 
shortcomings in the safety culture. To me, the most surprising 
thing was this: even though the TOC has the responsibility to 
oversee safety on the Metro system, the TOC has no full-time 
staff. It has no inspectors, no auditors. It has no enforcement 
power.
    The FTA has no enforcement power over Metro, either. In 
other words, the Metro rail is pretty much on the honor system 
when it comes to safety. That is why it is extremely important 
for Metro to have top-notch management.
    I think the safety problems we are seeing now at Metro are 
symptomatic of a larger problem, particularly on the rail 
system. Years of deferred maintenance and management problems 
are taking their toll.
    In February, some board members asked a well-respected 
former Metro general manager, David Gunn, to conduct a review 
of the entire Metro operation. Mr. Gunn spent 2 weeks 
performing a broad review of the rail and bus system. He spoke 
to managers and line employees and rode the entire rail system. 
Unfortunately, Mr. Gunn is retired and living in Canada and 
couldn't be here today, but we were able to obtain a copy of 
the presentation he made to a closed-door meeting of the board 
of directors last month.
    Mr. Gunn told the board that the bus system is in pretty 
good shape, but the rail system is in serious decline. 
According to Mr. Gunn, Metro rail has major organization and 
managerial problems. For example, he found that there was so 
much bad blood between the maintenance and the engineering 
departments that they literally would not even speak to each 
other. That does not improve the safety conditions.
    Deferred maintenance has reached a crisis stage. Gunn said 
that in the 2-weeks he rode the rail system there were two 
derailments, one of which he witnessed. He also found a broken 
rail on the main line. In addition, seven station platforms, 
which are made of reinforced concrete, were being shored up by 
wood.
    Mr. Gunn concluded and he told the board that Metro rail 
has downhill momentum which will be difficult to stop.
    [The prepared statement of Chairman Edolphus Towns 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Towns. At this time I yield 5 minutes to the 
ranking member, Congressman Issa.
    Mr. Issa. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Clearly we have jurisdiction over the District of Columbia 
and surrounding areas' Metro system on this committee. I am 
proud that we have the ranking member of the Transportation 
Committee also on this committee, since the problem that we are 
going to explore today of our Metro system in the D.C., 
Maryland, and Virginia area is, in fact, not unique.
    On a virtual daily basis around the country people discover 
that the operators of trains are texting, reading, and 
sometimes sleeping while an extremely heavy piece of equipment 
hurls down the road without any supervision. The use of 
automation today and over the last several decades has become 
the preferred system to rely on, but, as we discovered last 
year, there is no substitute for human beings involved in the 
process--human beings involved in the maintenance, the 
engineering, and the operation. Any failure there cannot be 
made up for by a system that 99.9 percent of the time provides 
safety.
    The U.S. Government provides 30 percent of the subsidy for 
every rail fare and as much as 70 percent of the subsidy for 
bus fares. Additionally, tens of thousands of Federal workers 
receive a tax-free transit benefit that effectively amounts to 
an indirect subsidy to our Metro system. Nevertheless, Metro 
cannot reach its financial obligations and is facing $189 
million budget shortfall for fiscal year 2010.
    Let us be very clear: it is not because Washington, DC, and 
northern Virginia are not booming. Employment is up. Home 
prices are virtually stable. And, in fact, times are good in 
the District of Columbia. Fares are rising, but ridership is 
falling. A system which was innovative in its day is now 
potentially going to be outdated.
    This shifts more and more traffic onto our roads, ones 
that, in the case of the District of Columbia, were not able to 
be expanded, cannot be upgraded because of the--I won't say 
clutter, but the large amount of Federal buildings. We in the 
District of Columbia cannot simply tear down the White House in 
order to form a more innovative track system. We cannot move 
the Capitol.
    Due to this, the failure of the Red Line and the killing of 
9 people and the injuring of 80 others is more than just an 
accident to be investigated. We have a system in the District 
of Columbia and surrounding areas that must work. It must be 
able to carry more passengers and do so safely.
    So as we hear today about the failures, let us understand 
that the day of saying that in the District of Columbia the 
Metro is good to use is behind us. The Metro is essential to 
use. We cannot, through buses or cars, meet the requirements of 
a growing Federal Government.
    I, for one, would like to see the Federal Government not 
grow, but I have been here 10 years and not having good, freed-
up systems of transportation has never worked in the past, it 
will not work in the future. So I join with the chairman in 
wanting to investigate this and hope that we will continue to 
monitor on a broader basis to find out where the flaws are 
coming in a system that we took to be safe when, in fact, it 
appears it is not safe and crumbling.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Darrell E. Issa follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Towns. Thank you very much.
    Let me just say that we have agreed that we would have two 
opening statements on each side. The ranking member of the 
subcommittee that has jurisdiction, we will allow them to make 
an opening statement, of course, and the gentlewoman from 
Washington, DC, who actually represents the District of 
Columbia, and, of course, Mr. Mica, who is the ranking member 
on Transportation. So we will go in that order, with the 
gentlewoman from D.C. first.
    Ms. Norton. Thank you very much, Mr. Chairman. I certainly 
want to associate myself with your remarks and with the remarks 
of the ranking member.
    I asked for this hearing several months ago at the 
subcommittee level. I regret that it has been delayed, but I 
will accept that delay inasmuch as it has been put at the full 
committee level, on the hope that putting this hearing at the 
full committee level will get some greater attention to the 
issues that were raised now almost a year ago and where I see 
no progress.
    And, if I may say so, Mr. Chairman, you mentioned nine 
people from this region were killed just short of a year ago, 
seven of them from the District of Columbia, but the larger 
number of people who ride the Metro come from all over the 
region. Where are we almost a year later? What action has been 
taken?
    Well, the President has appointed the two Federal members 
that were necessary to get the first $150 million of the $1.5 
billion over 10 years we are promised. We got that $150 million 
only after nine people were killed, and finally during the 
appropriation process, out of committee, on another committee, 
and the ranking member, Mr. Mica, of that committee is here. We 
have sent to the floor--not yet heard--a bill that will 
regulate Metro systems across the country, but what has 
happened in this region, Mr. Chairman? Just in this morning's 
paper we read that the executives of the three jurisdictions 
involved just got together yesterday and publicized a plan--I 
hope we will hear more of it--to strengthen the so-called TOC, 
the safety mechanism that was toothless and brainless before 
this accident. A full year, and we are just getting a mechanism 
and we are just learning about it.
    I don't know what it takes to shock action, but I would 
have thought that immediately after nine people were sacrificed 
that would be enough.
    In addition, after that we see the Metro trains slowed 
every day, which makes people think something must be wrong, no 
real explanation as to what is happening and why and how long 
it will take.
    Mr. Chairman, I compare this once sterling system to the 
system you know so well in New York, to systems in Chicago. 
Those systems are very much older than the system here, and yet 
those systems do not show anything like this accident rate, 
either among personnel or among its riders.
    Mr. Chairman, I am, if anything, frustrated, have nothing 
good to say about the progress that has been made, despite the 
oversight of the subcommittee, and believe that if we do not 
see some explanation at this hearing and some immediate action 
on what has been a melt-down of our major transit system, we 
will see what is already apparent: the loss of confidence in 
the only system most people have to take.
    So we are done with oversight. It is time now to demand 
from witnesses action that we can see, certainly by the 
anniversary of June 22nd, when nine people lost their lives on 
this system.
    Thank you very much, Mr. Chairman.
    Chairman Towns. I thank the gentlewoman from Washington, 
DC.
    I now yield to the gentleman from Florida, Mr. Mica.
    Mr. Mica. Thank you so much, Mr. Towns, for both conducting 
this hearing, your responsiveness in conducting appropriate 
oversight. I am the Republican ranking member, the Republican 
leader of the Transportation Committee. I think it is great to 
have this committee, with its independence, also take a look 
where we need to and conduct oversight where we need to on 
important issues even in the transportation realm.
    Certainly it is incumbent upon this committee, given our 
jurisdiction also over the District of Columbia, that we do due 
diligence in addressing the problems that we have here.
    First of all, let me say that safety has to be our absolute 
top priority when it comes to transportation. I think everybody 
is committed to it--the administration, Members of Congress. 
And I think we have to see what we can do to make certain that 
we improve not only the District transportation system 
operations but also to address the country's infrastructure and 
transportation safety issues there.
    Now, given that, you know, every time you have problems 
with a system everybody runs for a solution. I would have to 
beg to differ with the administration for the solution that 
they have come forward with, and I think we are presented with 
some choices. The administration is coming forward and saying 
we need to expand Federal authority over local and State 
transit systems and operations. I can tell you, ladies and 
gentlemen, that the last persons that we need or entity that we 
need are Federal bureaucrats or another Federal responsibility 
in this area.
    If we just look at the transit responsibility we have for 
safety right now, transportation safety responsibility--where's 
our little chart, I will put it up there--you look at the 
record, you have to go by the record of how people perform. The 
Federal Government FRA has authority over commuter rail right 
now and also over Amtrak, our two star areas that FRA oversees. 
The deaths with commuter rail are one per five billion 
passengers. This is the 2008 fatality rate. The death for 
Amtrak, excluding suicides, is one for every 241,000. I guess 
that is extrapolated out. But, by the same token, if you look 
at rail transit under local and State authority, we are looking 
at 1 in 65 million. So local and State, for the most part, are 
doing very well, and they also have a huge number of 
passengers, far surpassing anything. In 1 day the transit 
systems locally exceed what Amtrak does in an entire year.
    So we don't want to spread the butter any thinner and the 
money any thinner. What you need is you need resources, and 
applying the resources for millions of dollars and more 
bureaucrats to walk the tracks or have some new title is not 
the answer.
    It is also the slowest answer. You could ask Ms. Norton how 
she's coming on getting voting rights for the District of 
Columbia. This Federal process is a slow process.
    I was pleased to see that the two Governors and Mayor Fenty 
have acted, and I think that is the best action, and it can be 
taken, not that we don't need to tighten up some Federal 
regulations. We don't need to impose mandates, but we can have 
some better safety standards for them without the bureaucracy.
    What they need--and Ms. Norton put her finger on it--is 
money. And the money did not come until people were killed, and 
that is not the way to run a transit system. So we need to make 
the investment in technology and equipment that will give us 
the safest possible systems not only in the District of 
Columbia but across the United States of America.
    So I am glad you are conducting this. I want to keep our 
eye on the ball and the problem and a solution that will make 
us truly safe.
    Thank you.
    Chairman Towns. Thank you very much, and thank you for your 
statement.
    At this time I yield to the chairman of the subcommittee 
that has jurisdiction, Congressman Lynch.
    Mr. Lynch. Thank you, Mr. Chairman, and thank you for 
convening today's important hearing.
    As chairman of the subcommittee with jurisdiction over the 
District of Columbia, we have had multiple hearings on the 
various challenges currently facing the Washington Metro. The 
Washington Metropolitan Area Transit Authority [WMATA], as some 
have referred to it, is the Nation's Capital's primary 
transportation agency, and it provides services to a population 
of over 3\1/2\ million people, with a 1,500 square mile area. 
Considering the estimated 40 percent of the Federal employees 
who utilize the Washington Metro on a daily basis and the 
hundreds of thousands of D.C. area residents and tourists who 
rely on the system to navigate the Nation's Capital, it is 
critical that the D.C. Metro system be transformed into a 
pinnacle of dependability and safety.
    Unfortunately, as others have pointed out, the Washington 
Metro is currently facing serious safety and budgetary 
challenges. The D.C. Metro is confronting a $189 million budget 
gap which concerns me as far as the potential impact of those 
who utilize Metro rail, Metro bus, and Metro access. The WMATA 
Metro is also in the midst of addressing a series of accidents, 
including the June 22, 2009, Red Line collision, which the 
subcommittee held a hearing on in July 2009, and five 
subsequent accidents which resulted in four workers deaths and 
three non-fatal injuries.
    At the subcommittee's hearing on the June 22nd collision 
and in subsequent reports, serious questions were raised 
regarding deficiencies in the Washington Metro safety culture. 
In light of these concerns, I am particularly interested in the 
steps that have been taken and that plan to be taken to ensure 
that the highest standards of safety exist for Metro riders and 
employees, alike.
    Specifically, I look forward to discussing the efforts that 
WMATA and the three jurisdictions that are affected have taken 
to strengthen would Metro's safety oversight agency, the Tri-
State Oversight Committee. I also hope we will be able to touch 
upon the legislative proposals that have been put forth to 
enhance the oversight and regulatory authority of the Federal 
Transit Administration over transit agencies and operations.
    The Washington Metropolitan Area Transit Authority is 
navigating a complex transition period right now, and I hope to 
learn more today about what is being done by Metro and its 
various stakeholders to ensure the safety and security of 
hundreds of thousands of people who rely on the system on a 
daily basis.
    Additionally, I would like to note that the Federal 
Government has a role to play in promoting the safety and 
service of WMATA. I welcome the opportunity to hear about what 
we in Congress can do to help Metro at this time.
    Again, I would like to thank Chairman Towns and the 
gentlelady from the district, Ms. Eleanor Holmes Norton, for 
their willingness to push this issue forward and to convene 
this hearing today.
    I welcome our witnesses and I yield back the remainder of 
our time.
    Mr. Van Hollen [presiding]. Thank you, Mr. Lynch.
    The chairman had to leave. We will continue the hearing.
    I want to thank the chairman and Ranking Member Issa, also, 
for convening the hearing. As a member of the Washington area 
delegation, this has been a pressing issue for all of us. I 
want to thank Congresswoman Eleanor Holmes Norton for her long-
time leadership on this issue. Of course, Mr. Connolly from 
Virginia has been a big advocate for WMATA in his early 
capacity as a local official, head of the Fairfax County Board 
of Supervisors, and, of course, has remained very focused on 
this issue as a Member of Congress. And my colleagues from 
Maryland and Virginia, Mr. Cummings--Maryland, the District of 
Columbia, and Virginia, of course, contribute in terms of 
resources and manpower and expertise to this important system.
    I see Mr. Connolly. I think we will have an opportunity, 
Mr. Connolly--we are going to be very flexible during the 
question period. I think that we will have as many rounds as 
people want to cover points.
    I think without further ado we will just get right to it.
    Mr. Rogoff, thank you for being here today to give your 
testimony. As has been referenced, you did an earlier report. I 
believe this is the first time that WMATA will have an 
opportunity in this kind of public setting, anyway, to respond 
to your report, so thank you for being here today.
    It is the tradition of this committee to swear in the 
witnesses, so if you could please stand and raise your right 
hand as I administer the oath.
    [Witness sworn.]
    Mr. Van Hollen. Let the record reflect that the witness has 
answered in the affirmative.
    You may now be seated and please proceed to deliver your 
oral statement. You have 5 minutes. You will see the yellow 
light go on there when you have 1 minute left, and the red 
light, as it says, is when you can try and wrap up your 
comments.
    Thank you for being here, and please proceed.

STATEMENT OF PETER ROGOFF, ADMINISTRATOR, U.S. FEDERAL TRANSIT 
                         ADMINISTRATION

    Mr. Rogoff. Thank you, Mr. Van Hollen, Ranking Member Mica, 
Ms. Norton, and other members of the committee. I appreciate 
the opportunity to appear before you today.
    Washington Metro provides essential public transit and 
para-transit services to millions of citizens of the capital 
region every day, and through Secretary LaHood's leadership the 
Obama administration has remained focused on the challenge of 
improving Metro's troubling safety record. In the wake of the 
tragic Fort Totten accident last June, Secretary LaHood, acting 
through his newly established Safety Council, provided 
technical assistance to the Metro leadership to help 
immediately address their safety deficiencies. In addition, 
secretary LaHood ordered the Federal Transit Administration, 
along with Senator Mikulski, to initiate an audit of the Tri-
State Oversight Committee, as well as Metro's safety program.
    Our audit resulted in 21 findings and recommendations. 
Before I present them, however, I do want to make three over-
arching points.
    First, the individual findings in our audit are merely 
symptoms of a larger problem. Addressing each of our 
recommendations piecemeal, one-by-one, will not solve the whole 
safety problem at Metro. The over-arching safety problem will 
only be solved through a top-to-bottom change in the safety 
culture and focus at Metro.
    Second, I want to emphasize that under current law FTA does 
not have the legal authority to compel WMATA to take specific 
corrective action to address any of our recommendations. As I 
have testified before, FTA is currently prohibited by law from 
issuing national safety regulations for transit systems. And 
with few exceptions, State safety organizations like the TOC 
similarly have no legal authority to compel transit agencies 
like Washington Metro to respond to their safety findings. They 
don't have to respond to them in a timely way. In fact, they 
don't have to respond to them at all.
    This is precisely the reason why Secretary LaHood, on 
behalf of President Obama, formally transmitted a safety reform 
bill to the Congress back in December 2009. Just weeks later, 
President Obama transmitted a budget request to Congress that 
includes the funding necessary to implement the bill.
    The Metro crash last summer certainly accelerated our 
efforts to develop our transit safety bill, but it is important 
to note that we were already focused on accidents and safety 
lapses that concerned us at the Chicago Transit Authority, the 
Muni system in San Francisco, the T up in Boston, and 
elsewhere.
    While we believe the situation at Washington Metro is 
particularly troubling, some of the deficiencies and 
vulnerabilities that we identified in our audit are similar to 
problems that exist at transit agencies and State safety 
organizations around the country. That is why we need Congress 
to move forward with our transit safety reform bill now. The 
U.S. DOT cannot move forward to address these problems in any 
meaningful way while we are still prohibited in law from 
issuing safety regulations or conducting direct safety 
oversight.
    Just a few weeks ago, for example, Secretary LaHood used 
his authority to prohibit texting while driving nationwide for 
commercial truck and bus drivers, but even a simple, common-
sense safety measure like that cannot automatically apply to 
employees operating trains on systems like Metro until Congress 
changes the law.
    So on behalf of the President and Secretary LaHood, I must 
ask you collectively to do all you can to move this legislation 
to the President's desk.
    The third over-arching point I want to make--and it echoes 
something that Mr. Mica said--is that rail transit safety has 
challenges. We see important factors on the horizon that cause 
us concern. We have statistics that I am sure I will bring into 
the record that concern us that gave rise to our moving forward 
with our legislation. But it is important to point out that any 
proposal that, in the interest of curing the problems of 
Washington Metro, lowers the capacity of Washington Metro, and 
in so doing pushes people from Metro onto the city streets is a 
degradation of safety. It is still far safer by any measure to 
use rail transit than to drive.
    With those points made, I want to summarize our 21 
findings. I am going to summarize them in the interest of time. 
I am going to ask that our full audit be made part of the 
hearing record so all Members will have access to it. But 
really our findings surround four major observations, both at 
the TOC and in WMATA.
    First and foremost, inadequate communication. Also, in 
terms of the authorities of the TOC, inadequate authority, 
inadequate management of resources, and inadequate expertise.
    Regarding WMATA, we believe there are serious 
organizational failures that must be addressed immediately. Our 
audit found that there is no internal process for communicating 
safety-related information across all WMATA departments. Worse 
still, there is no internal process for the chief safety 
officer to communicate safety priorities to the general 
manager.
    In fact, safety department representatives indicated that 
they were learning for the first time during our audit that 
information of a safety nature was being documented by other 
operating departments.
    Put simply, Metro's safety department has been isolated 
both from top management and from other Metro departments. In 
fact, the safety department has had their access and authority 
questioned by other operating departments.
    The safety department was, in effect, completely 
marginalized at Metro, and this dynamic has seriously 
undermined the safety department's ability to conduct its 
safety responsibilities.
    Two facts that give us great concern: the safety 
department, itself, had been reorganized six times since 2005. 
Since 2007, there have been four different individuals in 
charge of the safety office. Given this record, no one should 
be surprised that Metro's safety department has been 
dysfunctional and ineffective.
    Further, the lack of effective communication challenges 
within WMATA also impacts the communication between Metro and 
the Tri-St Oversight authority. Put simply, the multi-State 
agency that is charged with overseeing safety at Metro hasn't, 
until recently, had a way to communicate with Metro's senior 
management.
    Finally but importantly, WMATA must finalize its right-of-
way protection rules and develop consistent and comprehensive 
training as part of implementing these rules before employees 
get access to the right-of-way. Supervisors and operators told 
FTA that communications from right-of-way workers do not 
specify their exact location on the alignment. Specifically, 
operators stated that in some cases they do not know that 
workers are on the track until they have visual contact, and 
when this occurs, especially in so-called blind spots, 
operators have limited ability to slow the train. This is a 
grotesque violation of all common-sense safety principles.
    Given these practices, we should be disgusted but not 
surprised that Metro's employees have faced disproportionate 
risk of fatality and injury as they work to keep the Metro 
system safe for the rest of us.
    No fewer than eight Metro right-of-way workers have been 
killed on the job since 2005. It is an inexcusable record.
    Regarding the Tri-State Oversight authority--I see my time 
has elapsed. I am going to try and move through this quickly--
we have a number of recommendations that really apply to 
getting the necessary authority, staying on top of open 
corrective action plans. TOC was tracking over 200 open 
corrective action plans designed to prevent the recurrence of 
accidents at one time. Some of those corrective action plans 
date back to 2004.
    Now, I noted with interest the announcement that Governor 
McDonnell, Governor O'Malley and Mayor Fenty issued just 
yesterday on these matters. I should say the TOC has until May 
4th to formally respond to the specific findings of our audit. 
The white paper that they released yesterday responds to some 
of our audit findings but not all of them. I believe 
yesterday's announcement granting greater authority to the TOC 
chairman and implementing efforts to streamline the TOC's 
procedures are an important step in the right direction. More 
needs to be done, and, as is always the case, the proof will be 
in the agency's performance.
    The same can be said for Metro's new-found responsiveness 
to the TOC's safety concerns. I have known Rich Sarles for a 
number of years, going back to his service both at Amtrak and 
at New Jersey Transit. I believe he is a skilled and committed 
no-nonsense transit professional. But, as Rich Sarles knows 
better than anyone, the proof that change has really come to 
Washington Metro will be in Metro's performance.
    Now, I was going to take some time and explain how our 
transit safety proposal addresses some of the very issues that 
we found at Metro and the TOC. I think I will seek that through 
Q and A since I have expired my time.
    Thank you for the opportunity to appear before you this 
morning.
    [The prepared statement of Mr. Rogoff follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Van Hollen. Thank you, Mr. Rogoff. Thank you for that 
testimony.
    Let me just pick up on the issue you raised near the end of 
your testimony with respect to TOC's proposal that was made to 
the Governors and the mayor of the District of Columbia 
yesterday. I gather from your comments you have had some 
opportunity to review that.
    Mr. Rogoff. We got it last night.
    Mr. Van Hollen. And you mentioned it made some progress 
toward some of the recommendations you have raised but still 
has some room to go. If you could please elaborate, both on the 
parts that you think address some of the issues that you have 
raised, but also on what you see as missing and what will have 
to be filled in by the May deadline that you mentioned.
    Mr. Rogoff. Probably the most important change that was 
made has to do with the actual authority of the individuals 
that are appointed by the three jurisdictions. Up until this 
point, really the TOC was--Ms. Norton referred to it as 
toothless. I think it is fair to say that their authority and 
their ability to command any attention out of Metro is 
undermined by the law, but it is also undermined that whenever 
they sought to elevate an issue they each had to go back to 
their own jurisdiction and consult with the District 
leadership, the Maryland leadership, the Virginia leadership, 
and get a go-ahead to elevate these issues.
    From what I could review, just having reviewed their 
document last night, they are attempting to take on that issue 
by appointing a full-time chairman--as I pointed out, right now 
up until recently they had no full-time employees--to give the 
TOC greater authority to act independently without having to 
run everything up the flagpole in all three jurisdictions.
    But, like I said, how much credibility and how much 
authority the TOC can have to address some of the core issues 
is undermined by the statutes, both in terms of the authority 
that was granted to TOC and the absence of Federal standards.
    Mr. Van Hollen. Well, on that issue, you mentioned in your 
testimony that only a few States have developed comprehensive, 
State-level regulations and granted their State safety 
organizations the authority to enforce those regulations. Could 
you talk about what those States have with respect to the 
enforcement provisions, and then talk a little bit about 
modeling TOC after that and what changes would be required 
specifically to the legal framework to accomplish that?
    Mr. Rogoff. Well, under the legislation we have submitted, 
our goal is to develop a system where the State safety 
organizations are very much our partners. We want to strengthen 
the State safety organizations just like Mr. Mica does. We want 
them to be our partners in this endeavor. But in order to do 
that, they need to have the authority to command the attention 
of the agencies they oversee, and some of those authorities 
that some of the States have implemented piecemeal have been 
things like the ability to fine, the ability in a worst-case 
scenario to dictate an operating practice. Those aren't the 
common situations that you want. You certainly don't want, 
first and foremost, transit agencies have transportation to 
deliver during rush hour, and they need to get people in and 
out, and it needs to be done in a seamless fashion.
    But I think importantly right now we have 27 State safety 
organizations, all of them I would describe as weak in their 
authority, but, more importantly, since we have no Federal 
standards we have 27 different definitions of rail safety out 
there, and that is one of the reasons why we felt that it was 
critically important that there be an opportunity for the 
Federal Government to establish minimum safety standards, so as 
we strengthen the State safety organizations they have a 
standard to oversee and enforcement rather than 27 agencies 
defining safety in their own way.
    Mr. Van Hollen. WMATA, as you probably know, has also come 
up with a kind of work plan to respond to the issues that you 
raised in your report. Can you comment on whether that plan, in 
your opinion, gets us to where you think we need to go to meet 
the safety concerns that you raised?
    Mr. Rogoff. Well, we haven't had transmitted to us a 
comprehensive plan yet. Like I said, they have until the 4th to 
specifically respond to the findings of our audit. We have 
obviously seen measures taken by Metro, some of which we find 
very encouraging. They have now brought in a new chief safety 
officer, Jim Dougherty, who is an industry professional who 
came from California to join the WMATA team. We have obviously 
seen hiring now. We were very concerned about the number of 
vacancies in the safety office.
    I think one of the things that is very, very hard to 
determine from the outside is whether this whole issue of 
communication has yet been solved, is whether all of the 
assorted stovepipes in WMATA are working together, are talking 
to each other, and pooling resources around common safety 
goals. There I think the proof, as I said, is going to be in 
the performance.
    Mr. Van Hollen. Thank you.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    You know, one of the things we try to do here is ask 
different questions to make the record complete, and I am going 
to ask you a line of questioning that is almost counter to the 
Secretary's proposal or portions of it, but not because I want 
to be counter to it. His proposal and the committee of 
jurisdiction may be exactly right, but I will leave that to the 
Transportation Committee. But let me ask you a couple of 
questions.
    First of all, what if you set up a standard and didn't have 
the authority to enforcement it, but you set up a standard and 
published it? What if you had the funds to publish a central 
standard and you had the transparency to review whether or not 
they were compliant with what would ultimately be a voluntary 
standard? Wouldn't that, first of all, set something from which 
these committees--and the Metro system appears to be a 
committee of committees of committees, and that is part of 
their problem.
    But ultimately the committee would have to answer the 
question: are we compliant or not, the same as every audit firm 
looks at--and I sit on the board of a public company--we look. 
The one thing we don't want is we don't want our review to say 
we have material failures of our audit in any aspect, so we 
work very hard to meet that standard. We don't always meet it, 
but ultimately you can have material failures every single time 
as a public company and yet the last thing you want to do is 
have the stakeholders, particularly in a public company, see 
that.
    What is wrong with the Federal Government beefing up its 
transparency and its ability to develop that standard as an 
interim step?
    Mr. Rogoff. Well, there are some voluntary standards in 
place now. They are not issued by the FTA. I will say that we 
have participated in funding this effort through the American 
Public Transit Association, but they are just that: they are 
voluntary standards.
    Mr. Issa. Does the Metro system meet that standard?
    Mr. Rogoff. I can't speak to each individual voluntary 
standard and where Metro may be compliant with some and not 
with others. I think----
    Mr. Issa. But doesn't that beg the question of, if you have 
helped in the process of creating multiple standards with your 
own funding, in a sense aren't you complicit, if you will, in 
this failure by not using the Federal Government's dollars, not 
just the ones we give to the various Metros, but the Federal 
Government's dollars to have a single point of what is right or 
wrong in a given situation that could be studied and hopefully 
complied with by people who don't want to be sued, who don't 
want to look terrible in their safety record and other parts, 
when in some cases some of these boards and commissions are 
either truly voluntary or de minimis in their pay. I mean, 
people who sit on these boards, the last thing they want is to 
ruin a reputation that caused them to be appointed by a mayor 
or a Governor to them.
    Mr. Rogoff. I think to the degree that we are complicit in 
wrongdoing in that is--and this started, obviously, before our 
participation, but that is that we engaged in at least helping 
the transit industry develop voluntary standards. As a Federal 
agency, I feel that it is our obligation to identify what the 
safe practice is, and that is why the only way we can ensure 
that we are going to see those safe practices is by having 
mandatory standards.
    Now, having said that----
    Mr. Issa. Let me be the devil's advocate a little further. 
You haven't developed a single standard. You haven't had the 
ability----
    Mr. Rogoff. Sir, I am prohibited by law from establishing a 
standard.
    Mr. Issa. No, no. I understand. I understand, but I am 
trying to walk you through the difference between federalism 
and, in fact, a single government. We don't have a single 
government. San Diego has a pitiful, slow system of Metro, for 
the most part. Most of our trains and trolleys and so on--and, 
for that matter, the San Francisco cable cars I think should 
flunk any safety standard, and yet please let's not tell San 
Francisco that they have to get rid of their cable cars.
    So back to the basic point: you haven't developed a single 
standard, for whatever reason, call it a self-inflicted wound 
by Congress, you haven't developed a single standard, you don't 
have a statutory transparency, even though we provide more than 
30 percent of the funding to the Metro system, and you, if you 
will, you have sort of been an observer.
    If we are looking at fixing the system and respecting 
States and other--in this case, two States and the District--
organization, respecting their ability to do the best they can 
with the specifics of what they have, why wouldn't we take the 
interim step of giving you the authority to analyze, the money 
to analyze, the ability to have transparency on these 
organizations that we fund with Federal taxpayer dollars, but 
at the same time recognize that until you produce that standard 
that you would like to produce and it has a little bit of 
testing, why would we immediately go to mandating it when it 
might be in some cases that your standard, if mandated, would 
not necessarily improve the safety for every Metro around the 
country? After all, you do have authority over the interstate 
train system and it is not without its flaws, is it?
    Mr. Rogoff. No, it certainly isn't.
    Let me make three points. The interstate train system is 
overseen by the Federal Railroad Administration and it is very 
pertinent to some of the data that Mr. Mica put up, and that is 
that we have a very voluminous Federal book of standards issued 
by the Federal Railroad Administration that pertains to about 
one-eighth of the rail transit riders in the form of commuter 
rail. Eight times that number of transit riders are currently 
covered by no Federal standards.
    Now, I think it is important to point out you are talking 
about a specific standard to a specific technology. We have 
said over and over again that it is our goal to not recreate 
the very voluminous FRA rule book for rail transit systems. Not 
only would it be overwhelmingly burdensome, it wouldn't really 
be appropriate for rail transit because these systems use 
different technologies. You can't just write a standard that 
would necessarily apply to all of them. I mean, certainly you 
could pull off some low-hanging fruit, like prohibiting texting 
while driving a rail vehicle.
    Mr. Issa. Or sleeping.
    Mr. Rogoff. Or sleeping. That is a no-brainer. Or, you 
know, medical examinations for rail transit vehicle operators. 
But our real goal is to require a system, to get the transit 
operators to get a system of safety management in place. Right 
now, across the universe of rail transit safety, performance by 
our transit agencies, we have huge diversity. In the area of 
asset management and do they really know the condition of their 
assets, I have transit agencies that do a very, very good job 
and know where all their assets are and know their condition. I 
also have transit agencies who couldn't even tell you where all 
their assets are at this moment, and everything in between.
    What we are trying to do is not necessarily regulate in the 
tensile strength of every segment of rail, but really get at 
the issue of requiring a safety management system that 
addresses the unique safety challenges of each transit system, 
and the safety challenges of those transit systems are going to 
be different system to system.
    Mr. Issa. Thank you.
    Thank you, Mr. Chairman.
    Mr. Van Hollen. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Yes, the safety standards are going to be different system 
to system. That is very important. Most of these systems don't 
run across State lines the way ours do. But it is important to 
note, because Mr. Mica indicated that there might be local 
systems that are doing well. As I understand the 
administration's proposal, the preference is for the local 
system. If it is not doing well, somebody has to do it, and as 
long as it is done under some Federal regulations that we all 
would agree upon, who would, in fact, be doing it would be the 
local jurisdictions.
    Isn't that the case, that rather than have mandates 
imposed, because San Francisco differs from the District of 
Columbia, the mandates wouldn't be imposed locally, so you 
would look only at the mandates to see if they are consistent 
with safety standards, recognizing that there might be very 
different mandates and that the Federal Government shouldn't be 
imposing some national mandate?
    Mr. Rogoff. Our goal is really--I'm not going to say at the 
10,000 foot level, but to establish standards at the 5,000 foot 
level, like I said, that addresses safety management systems 
rather than individual components, agency by agency.
    I think, importantly, another part of our proposal that is 
critical to it, and that is to strengthen these State agencies. 
Right now, up until this year when the number just ticked above 
one, right now the average staffing strength for these State 
safety organizations, when you remove California, is less than 
one person per year.
    Ms. Norton. The average what?
    Mr. Rogoff. The staffing strength, the number of people who 
actually work in these State safety organizations. Right now, 
based on our most recent data, because the TOC has boosted his 
staff a little bit and because California has a very different 
regime, but when you look at all of the other 25 State 
agencies, there is less than one full-time person working at 
them all year.
    Ms. Norton. This really gets to my next question, because I 
wanted a comparison of TOC with safety organizations across the 
United States. We know how to compare WMATA with New York and 
Chicago, but are you telling me the vast systems in Chicago, 
for example, in Illinois, that those systems, like WMATA, would 
only have this toothless notion? Or let me ask further, would 
such systems at least have some authority, even if they were 
not well staffed, in other jurisdictions?
    Mr. Rogoff. Our goal under our legislation is to----
    Ms. Norton. No, I am asking what it is.
    Mr. Rogoff. What it is now?
    Ms. Norton. I am trying to get some perspective on whether 
or not TOC is different from other jurisdictions.
    Mr. Rogoff. Well, I think we have----
    Ms. Norton. In terms of its authority relative to the local 
transit system.
    Mr. Rogoff. We have State agencies that are stronger and 
State agencies that are weaker. We have 27 models out there, 
which is part of the problem, which is why we want to 
establish----
    Ms. Norton. But if they have one person on average, can you 
possibly have some that are strong with one personnel?
    Mr. Rogoff. The only one that I would identify as being 
considerably stronger is California. It is handled by the 
California Public Utility Commission. They have staffing of 
upwards of 18 people to bring to bear on this issue.
    Ms. Norton. Well, do you think that one full-time 
chairman--now, I am told this chairman would be full time, this 
proposal that apparently came forward because this committee 
was holding a hearing, it appears. Would this full-time 
chairman be a full-time paid chairman at the executive level, 
as you understand it or see it?
    Mr. Rogoff. I am really just going off of the material we 
got last night.
    Ms. Norton. And it does not say?
    Mr. Rogoff. The chairman of the TOC is testifying on the 
next panel. It might be an appropriate question for him. What 
we have said is these are some steps in the right direction, 
but clearly more needs to be done.
    Ms. Norton. Let me ask you about your role. How many other 
transit systems in the United States cross State lines like 
this? Here we cross three State lines. Is that unusual?
    Mr. Rogoff. Well, it is unusual in some cases, but off the 
top of my head we certainly have, up in the New York/New 
Jersey/Connecticut region we have it. We are going to have rail 
transportation----
    Ms. Norton. Well, you have the authority----
    Mr. Rogoff [continuing]. Between Rhode Island and 
Massachusetts.
    Ms. Norton. I know New York and New Jersey, but typically 
they are within State boundaries.
    Mr. Rogoff. Typically.
    Ms. Norton. Now, in New York and--you did an audit. what 
gave you the authority to do the audit at all if you have so 
little authority over State systems?
    Mr. Rogoff. We had the authority to audit the State safety 
organization, because they are the--that is, currently 
implementing the rather weak Federal regime. That is the 
decision that was made in ISTEA in 1991, that rather than have 
Federal authority that we would have these State safety 
organizations.
    Ms. Norton. How many audits have been done?
    Mr. Rogoff. Very few. Well, let me rephrase that. We audit 
every 3 years the condition of each of the State safety 
organizations, but it is fair to say that this audit had 
considerably more attention and more resources put on it.
    Ms. Norton. Are you prepared, as I understand it and you 
are correct, we will learn more about what is proposed, and you 
do not have the response to the audit yet. Is the Federal 
Government considering that three States are involved and the 
Nation's Capital is involved? Is your office prepared to retain 
some kind of audit oversight until we get a TOC in place that 
will assure the public that safety concerns are being enforced? 
Or how will we know if there isn't somebody to inform us on a 
regular basis that what happened in June will not happen here 
or elsewhere?
    Mr. Rogoff. Well, I think, put simply, we can stay on top 
of the TOC to implement the audit findings we have, but our 
entire reason for putting forward a new legislative statutory 
regime was precisely because we don't think the current law 
allows the kind of comprehensive oversight by which we could 
guarantee the safety of the system.
    Ms. Norton. Mr. Chairman, could I just ask one last 
question? Does the proposal put forward by the executives 
propose to change their laws? What about their laws would have 
to be changed for us to get an independent TOC?
    Mr. Rogoff. Well, you raised a very important issue, and 
that is independence. That is one of our concerns about the 
inadequacy of the current regime. We currently have a situation 
where some of these State safety oversight organizations have 
been allowed to be funded by the very transit agencies they are 
supposed to oversee. It is a----
    Ms. Norton. Well, how else are they going to get some 
money?
    Mr. Rogoff. That is probably----
    Ms. Norton. The legislature?
    Mr. Rogoff. That is probably how this situation emerged, 
but the reality is we don't allow regulated parties to fund 
their regulators in any other area of transit safety oversight.
    Ms. Norton. So among the things the State legislatures do, 
would have them funding from the legislature and essentially to 
strengthen their independence?
    Mr. Rogoff. Strengthen their independence and their 
enforcement authority.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Van Hollen. Thank you.
    Mr. Mica.
    Mr. Mica. Thank you.
    Well, I think we are all searching for a solution to sum up 
with the safest possible system. Our minority side did a report 
December 2009 with some conclusions for reform.
    My concern, Mr. Rogoff, is that, first, while you are 
asking for $29.6 million and 260 new full-time, permanent 
positions, and I am wondering how that money would best be 
spent. If we look at some of the problems, first you have some 
aging infrastructure. I just got back yesterday with Mr. 
Oberstar. We were out in Chicago.
    Mr. Rogoff. Right.
    Mr. Mica. The L was built in 1888, the L line. We have a 
system here that is 34 years old. We look at the problems that 
we have seen. First of all, we had--well, we do have some 
special authority and responsibility over the District, which 
is unique, and we need to see that things are in place there.
    As far as the country, if you look at the Federal 
Government and what it has done where it has authority--and, 
you know, you are FTA, but FRA has a horrible record of safety 
oversight, not that you will be a failure, and we don't want 
you to be a failure. We want you to be a success. But you had a 
failure of an agency to organize. When you don't have personnel 
assigned to safety, when you don't have a phone number or Web 
site or specific responsibilities defined in something we have 
oversight of, and our committee does over the District and over 
this system, there is something wrong, so that needs to be 
changed.
    If other State agencies don't do that--and our 
recommendation was to reform existing State oversight program 
to ensure that State agencies are properly staffed and have 
necessary authority to oversee safety of local and State 
systems. Rather than having money to create a Federal 
bureaucracy, give them the resources.
    You just got through saying it is a conflict for the agency 
to use their resources to do the regulation, so I would rather 
go in the direction, if we are going to set some standards--and 
we don't know what they will be. The standards are going to be 
dramatically different. The L in Chicago is different than San 
Francisco, which you mentioned, which has cable car. We have 
BARTA system, different technologies. So one size fits all is 
not the answer to our problem. Right?
    Mr. Rogoff. We agree.
    Mr. Mica. OK.
    Mr. Rogoff. Absolutely.
    Mr. Mica. So, again, I don't mind spending the resources on 
safety, so I think we have to--you are well intended. You said 
the mandates would be limited to safety management systems. Did 
I mis-quote you?
    Mr. Rogoff. Well, I don't want to say exclusively. That is 
our focus. Something like, as I said----
    Mr. Mica. Well, again, we make certain that something is in 
place and somebody is doing something, whether it is the two 
States and the District of Columbia here or----
    Mr. Rogoff. Something that is appropriate for the unique 
circumstances.
    Mr. Mica [continuing]. Illinois or regional system. Now we 
are getting into regional systems. So I just don't want to 
spend a lot of money creating another Federal bureaucracy with 
a lot of mandates.
    And then the other thing, too, is we said provide 
additional funding to local transit systems to upgrade safety 
equipment. That was our second recommendation back in November. 
So take some of the money, like Ms. Norton said, or these aging 
systems. They are all aging systems, and they need the money. 
And pinpoint that toward safety equipment that can make a 
difference in true safety.
    So I am with you in the intent, but I think that we could, 
if we work together, we could refine this and address the 
problems and then have a solution that will do the job.
    Mr. Rogoff. Mr. Mica, I think we may disagree less than it 
appears, and here is why: you don't want to spend a lot of 
money on a large new bureaucracy. That is, in part, what we are 
saying when we say we don't want to completely recreate the 
FRA. And that is not to denigrate the FRA, but they grew out of 
a very different tradition over not decades but almost a 
century of trying to regulate--well, it started as rail 
operations run by private railroads.
    You know, we have put forward money for additional people, 
not only so we could do regulations but also to do the very 
issues like fund strengthening of State oversight organizations 
to give them the training and the expertise so we can certify 
that they are safe and they are fully empowered to do a good 
job.
    Our budget proposal for this, which is funded in the 
President's 2011 budget, is still well less than 1 percent of 
my agency's entire budget, and I don't foresee our overall 
budget, even in its fully built-out form, exceeding 1 percent 
of our agency's total budget.
    And I would also point out, on the issue of the aging 
infrastructure, we are totally in agreement. We did a report, 
as you know, that identified some $50 billion in deferred 
maintenance at the seven largest rail transit systems. In our 
2011 budget, a transit budget that only grows by 1 percent for 
the whole FTA, we found a way of funding the new safety 
responsibilities, and we provided an 8 percent for our state of 
good repair initiative for these rail systems, so we are 
putting our money where our mouth is on looking out for safety 
and trying to do as well as we can on state of good repair.
    Mr. Van Hollen. Maybe we can get an agreement here.
    Mr. Mica. Well, we do thank him and look forward to working 
with him.
    I would ask unanimous consent that both a copy of our 
recommendations, the minority, that were prepared in December 
be made part of the record, and also the chart that I referred 
to on the safety record of the various agencies that was 
displayed before the committee be made part of the record.
    Mr. Van Hollen. Without objection, so ordered.
    Mr. Mica. Thank you.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Rogoff. Could I just add one thing? This is not to 
create dissonance where there may be some harmony, but there 
are some data points. I think it is important, in considering 
the context of Mr. Mica's statistics, it is important to point 
out, thankfully, there are few enough fatal accidents in either 
of these modes that one accident skews the data rather 
dramatically, so that data did not take in the Metro accident. 
There are all kinds of ways on cutting this data, on whether 
you include right-of-way accidents or not.
    We have some data that concerns us greatly, like a 65 
percent increase in derailments.
    Mr. Van Hollen. I want you to be able to make that point, 
if you could make it----
    Mr. Rogoff. I will summarize it for the record.
    Mr. Van Hollen. That would be very helpful, just because we 
have other Members.
    Mr. Rogoff. Absolutely.
    Mr. Van Hollen. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
your earlier kind remarks.
    Thank you, Mr. Rogoff, for your testimony and for this very 
thoughtful audit, which I think is presented in direct 
language, easy to follow.
    But let me just say that Metro is unique in the United 
States. It isn't like the other 26 transit systems around the 
country. It, as Ms. Norton pointed out, is governed by three 
jurisdictions, and it is funded essentially, operationally, in 
two ways: fare box recovery by users, the highest in the United 
States, so they are already paying more than their fair share; 
and, second, by subsidies by the local jurisdictions. My 
taxpayers in Fairfax County, Congressman Van Hollen's taxpayers 
in Montgomery County, and Eleanor Holmes Norton's taxpayers in 
D.C. Not a dime of Federal subsidies for operational purposes.
    So if we are going to have expanded Federal oversight of 
safety or any other aspect of Metro, then the Federal 
Government has to be at the table with operational dollars. Mr. 
Mica is right. Otherwise, we have an unfunded mandate. We have 
the Federal Government setting new standards and putting on new 
burdens and new requirements, all of which may be good ideas, 
but not funding them.
    Therein lies the problem with Metro, because for a long 
time, long before Mr. Rogoff got the job, the Federal 
Government has been retreating from its responsibilities with 
respect to transit in America, and especially with respect to 
this Metro.
    We move 40 percent of the Federal work force every day. No 
other transit system in America does that. We bear the burden 
of 12 to 14 million American and other tourists coming to visit 
the Nation's Capital because we are the seat of the Federal 
Government. No other transit system in the United States does 
that. And local governments are expected to subsidize that 
through their subsidy programs. And so one of the things 
missing at the table is the Federal Government with operational 
dollars.
    We finally made progress for the Federal Government 
providing capital dollars in a matching program, and that is 
great. That is real progress. But I feel very strongly that the 
Federal Government can't have it both ways. If we are going to 
set new standards, if we are going to put new burdens, all of 
which may be justified, on Metro, then the Federal Government 
has to provide operating dollars, and I think it ought to 
anyhow because of the unique relationship with Metro.
    I know that some might say we already provide operating 
subsidies in the form of smart subsidizing fares for Federal 
workers who use it. That is a subsidy for our work force. That 
is not a subsidy, that is not an operating subsidy for Metro, 
itself, because actually it serves our interests as the Federal 
Government to have those people using Metro every day, and we 
saw the importance of that relationship in the recent blizzard. 
When Metro could not function above ground, we had to shut down 
the Federal Government for 4\1/2\ days. So the relationship is 
vital, essential. There is no turning back, and we might as 
well recognize that relationship.
    Mr. Rogoff, let me ask you, if I can, three questions. One, 
21 thoughtful recommendations. What would it cost to implement 
those recommendations? Do you have a cost estimate?
    Mr. Rogoff. We would not, but I am glad you raised that 
issue, because I have to say that when you look deep down in 
some of those recommendations, issues like communication and 
parts of WMATA working at cross purposes, I do not believe that 
all of those recommendations are about money. I do not believe 
all of those solutions bear a cost. I think it is about focus. 
It is about how serious the safety challenge is taken by all 
lines of business and how Metro is organized.
    Mr. Connolly. But you have no cost estimate? I mean, 
certainly it is going to cost something.
    Mr. Rogoff. Some of the things may cost something in terms 
of, you know, we have asked the TOC to strengthen its personnel 
at the tri-state oversight. Obviously, that bears some salary 
costs for those additional personnel. But, again, I think a lot 
of the more immediate audit findings of what has troubled us on 
the safety performance at Metro are not cost issues, they are 
performance, organization, and focus issues.
    Mr. Connolly. Yes. I agree with some of that, but, I mean, 
I think it also involves dollars. Metro is starving for dollars 
in terms of operating costs and bumping up against limits in 
both subsidies and fare box recovery.
    Let me ask you, if it is possible, to ask the agency to go 
back and look at this issue of----
    Mr. Rogoff. We are happy to look and see where we identify 
a specific cost for the response.
    Mr. Connolly. Good.
    Second, governance structure. I have read with great 
interest some interesting editorials in a local newspaper about 
how parochial the governing structure is, the notion that 
Maryland, D.C., and Virginia have this odd and quixotic notion 
that elected officials from those jurisdictions are appointed, 
officials from those jurisdictions ought to actually have some 
say over how their local tax dollars are being used to 
subsidize Metro. Have you looked at the governance structure, 
and are there recommendations for how it might be improved, 
streamlined, or made more efficient?
    Mr. Rogoff. We did not as part of our audit specifically 
take on the issue of the governance structure. However, I will 
say this: we do have some concerns as it relates to the 
governance structure of the TOC, and the TOC sort of mirrors 
what is going on with the WMATA board, and that is that you 
have a rotating chairman that changes every year, and all three 
jurisdictions have to agree on everything.
    I would say this: we do have concerns over what has 
sometimes been described as the mutually assured destruction 
single jurisdiction veto of the Metro board. It makes it very 
hard to make very difficult funding decisions.
    You had mentioned in your opening remarks that Metro has 
very high fare box recovery. That is true on the rail side. It 
is not necessarily true on the bus side. And if we are going to 
address the overall budget on the whole, everything needs to be 
looked at.
    Mr. Connolly. Yes.
    Thank you, Mr. Chairman. I know my time is up. I want to 
echo what Mr. Rogoff suggested. I also think we have to look at 
uniform strengthening of rail safety standards so that we are 
all working from the same book; that we can't have 27 different 
standards for 27 different systems. No wonder we have a 
problem.
    I thank you. Thank you, Mr. Chairman.
    Mr. Van Hollen. Thank you.
    Mr. Bilbray.
    Mr. Bilbray. Mr. Administrator, in all fairness to the 
Metro system, as a former transit operator, myself, the bus 
systems have never had fare box recovery that rail does.
    Mr. Rogoff. Absolutely.
    Mr. Bilbray. OK. We just want to clarify that.
    Let me just say that I am going to dig into one little 
aspect, and I think it is more important to talk about this one 
aspect and see how the system is responding to that. How many 
systems do we have in this country right now that are automated 
operation with manual override?
    Mr. Rogoff. It is relatively few, and most of those are 
shorter segments that aren't city-wide systems. They are 
sometimes point to point. I would have to get you that for the 
record.
    Mr. Bilbray. When I came here in 1995, this sent up a red 
flag for me as a former operator, because in 1981, when we 
implemented our rail system, we were specifically told by 
experts that the system that was automatic with the manual 
override was worse than having no automation at all; that it 
was a warning that it was a system designed by an engineer 
sitting in an office, not designed by an operator who had 
actually had real-life experience. We specifically went to 
manual operated with an automated override, much like what you 
are proposing with the positive train operation.
    My concern is: if we knew about it in 1980 that this 
problem came in--and, my colleagues, just think about this. You 
spend 8 hours a day doing nothing but waiting for something to 
happen, and you do that for years on end. When something 
happens, there is no way your response time is going to be 
quick enough to stop the situation.
    When we talk about people texting, when we talk about them 
being on the phone, they are not doing anything because you 
have designed a system that was designed to design the operator 
out of the process, and then you want the operator to be in the 
process at a split second at a certain time. It is totally 
counter-intuitive to human nature. But we continue to operate 
systems like this.
    Mr. Rogoff. I would agree with you, sir, that the whole 
issue of operator engagement, fatigue, sleep apnea, and how we 
keep the operator engaged in their task is a very important 
area for not only research but a real, hard look by some of 
these agencies. It is a concern. And the NTSB has spoken to it 
also.
    Mr. Bilbray. Well, Mr. Administrator, you don't have to go 
very far. You go right down with the tram between here and the 
Capitol. You have an individual working a switch with an 
automated override in case they don't back that switch off. But 
at least when something is wrong the attention is there, the 
focus is there, and if there is a problem they will know very 
quickly.
    I have just got to say that what worries me is where has 
the entire safety oversight in this country been since 1980 
when those of us in the system knew that this whole assumption 
that some expert engineer who probably never drove a train in 
their life designed this perfect system that was designed to 
eliminate the operator, and then include the operator there for 
a false security that really doesn't work. How have we allowed 
that to happen over the last 20, 30 years?
    Mr. Rogoff. Well, I think you have correctly identified 
that, in the interest of trying to develop fail safe systems, 
they have tried to eliminate the risk posed by the human 
factor, and sometimes when you eliminate that human factor you 
also eliminate the attentiveness of that human. And this is an 
area that I know in our research and innovation office within 
DOT they are looking at on a mode-wide basis, and maybe we can 
have that administrator, Peter Ropell, come up and talk to you 
about what we are trying to find out there.
    Mr. Bilbray. OK. I think that what we did is we saw the 
human factor as being the weak link in the process and that 
technology was the answer all the time. But instead of taking 
the positives of both we took the negatives of both; that when 
an automated system fails there is no way for the operator to 
respond where, in fact, if we had put the operator at control 
with a backup of automation, that automation does not get 
fatigued, does not get in a pattern. Automation can respond in 
time.
    We have literally allowed some nerd in a back room, because 
he has a Ph.D., to design a system that doesn't work in the 
real world. I worry about that, that in the Federal system our 
safety system didn't work in the real world because we didn't 
nip this and say up front to everybody what I was told as a 
young designer of a transit system: don't follow these guys 
down this road. This is a system that is not based in reality 
and it will kill people.
    So I have to say, Mr. Chairman, when I saw the accidents 
here right on my first reaction was this is exactly, the system 
was designed to do this. These accidents were designed into the 
system, but somewhere down the way our process did not re-
engineer the process and make them change to the positive.
    Thank you. I appreciate it.
    Mr. Rogoff. I would just add I believe Jackie Jeter is 
testifying on the next panel. She represents the rail 
operators, and I think she would probably have more real life 
information to share with you on that than I can.
    Mr. Van Hollen. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    This is a dysfunctional system, isn't it?
    Mr. Rogoff. It needs work urgently.
    Mr. Cummings. You know, as I listened to your testimony, it 
seems to me it is a wonder if we are able to get the kind of 
results we need at all, because it seems like the right hand 
doesn't know what the head or the left hand is doing. Is that a 
fair description?
    Mr. Rogoff. I would make this observation: when I had a 
sit-down, we have a great deal of concern about our audit 
specifically focuses on the lack of communication between the 
safety department and other departments. In conversations with 
Metro leadership, that communication problem is not limited to 
the safety department.
    Mr. Cummings. Yes.
    Mr. Rogoff. There are other right hands and left hands that 
aren't talking, and that is a very big problem, especially 
given the intensity of service that this system has to turn out 
every day.
    Mr. Cummings. And what do you think that is all about? You 
heard Mr. Mica, and I sit on the Transportation Committee also, 
and you heard Mr. Mica's opposition to the bill. Let us assume 
for the moment that the bill is not going to get through any 
time soon, although I would like to think otherwise, but I also 
want to be realistic. I am trying to figure out, of the 21 
recommendations, you said that not all of them cost money, 
which I agree. I mean, I am just trying to figure out how do we 
get to where you have to go, where you are trying to get us. 
Let us assume the legislation doesn't pass. How do we get 
there?
    Mr. Rogoff. Well, I think, importantly and sadly, you have 
a lot more focus on this problem after an accident than 
obviously you did beforehand, so I would like to, because I 
want to be an optimist on these things, represent that the 
local jurisdictions and the Tri-State Oversight Committee, even 
with its extraordinary limited authority, will be able to turn 
things around, as I think Peter Benjamin and Rich Sarles have 
committed publicly to doing.
    As I said, as a daily rider of this system, the thing that 
spooks me most are these communication issues, these stovepipe 
issues, and something that isn't in our audit but I have now 
heard from enough people that I feel comfortable voicing it 
here, and that is that there is some real bad blood and 
hostility between some operating departments. That is a very, 
very dangerous environment in which to be running a rail and 
bus operation.
    So I think an important focus of what needs to get us where 
we are going is new Metro management needs to identify that for 
what it is, pierce through it, and if people all up and down 
the chain still want to voice hostility and not work together 
as a team, then maybe they should go find their new team 
somewhere else and bring in people that are prepared to work as 
a team to focus on the problem.
    Mr. Cummings. Do you realize what a sad commentary you just 
made? Do you realize how sad that is?
    Mr. Rogoff. I do, sir, but the audit speaks for itself. 
These are not light-hearted findings.
    Mr. Cummings. It is chilling. So basically what we are 
talking about are, aside from all the things that you have 
dealt with in your audit, you are also talking about probably a 
morale issue?
    Mr. Rogoff. Clearly.
    Mr. Cummings. And something in a leadership issue. And I am 
not saying present leadership, because I know it is new and all 
that, but--and it is so sad that we would--you know, you can 
have all the rules and the regulations you want, but if you 
don't have people who are committed to the mission, because I 
think when you are committed to the mission, a lot of that 
small stuff----
    Mr. Rogoff. Falls away.
    Mr. Cummings [continuing]. And sweating it goes away. It is 
sad. It is really sad.
    So you are saying you almost have to start from scratch?
    Mr. Rogoff. I think you need to start from the top, the 
bottom, and the middle. Let me just give you an example. I 
think you put your--you kind of hit the nail on the head when 
you talk about morale and what is it that the workers see when 
they report a safety concern up the chain. Does anything ever 
come back?
    When we talk about establishing safety management systems, 
not just at WMATA but in every rail transit system through our 
legislation, it is about having an environment where every set 
of eyes and ears at the transit agency is focused on safety and 
is reporting issues up, and there are people who are analyzing 
that information and finding out where the safety 
vulnerabilities are and addressing them first.
    But if you have been working on the right-of-way for a 
dozen years, and in the last 3 years every concern you raised 
doesn't get an answer--in some cases it is even worse, because 
in some cases the transit agency addresses their problem but 
doesn't tell you that they have addressed the problem, so you 
don't even know that they have addressed it, and it turns into 
a real morale buster in terms of, if middle management and 
senior management isn't caring about safety, why should I.
    Mr. Cummings. This last thing, Mr. Chairman. And then it 
becomes like a cancer.
    Mr. Rogoff. Absolutely.
    Mr. Cummings. Because new people come in and say, Why are 
you working so hard.
    Mr. Rogoff. Yes.
    Mr. Cummings. And so you have a problem, and the people 
suffer.
    Thank you, Mr. Chairman.
    Mr. Van Hollen. Thank you.
    Mr. Rogoff, I just think, in response to Mr. Cummings, you 
referred to bad blood between some of the different groups at 
WMATA, and before we bring up the last panel, I think it is in 
the interest of the public record that you elaborate just 
briefly. I think we would all benefit. And I think WMATA would 
benefit, because this is a very important issue that was 
brought up. So if you could just briefly elaborate so that the 
witnesses----
    Mr. Rogoff. I will elaborate a little bit, but out of 
fairness I need to say that these observations that have been 
made to me have been anecdotal, and that is, especially when it 
comes to these issues of right-of-way safety, you have 
different workers working in different crafts.
    Really, a common rule of thumb when you have people working 
on the right-of-way with moving trains is everyone has to get a 
comprehensive safety briefing and know where everyone is at all 
times. And the observation has been made to me--again, 
anecdotally--that folks are not making that extra effort. It 
really shouldn't be an extra effort; it should be a fundamental 
effort. And that is for lack of caring between departments as 
to who is on the right-of-way crew versus who the operators 
are. It is a concern that is the most critical safety example, 
but I think that there are other examples.
    Let me give you one that was in our audit. When the safety 
department has come around to other operating departments and 
said, we need to audit your safety department, they have had 
their own authority questioned. Why do we need the safety 
audit? What do you know about it? That is a kind of form of 
dysfunctionality that can't be allowed to persist.
    Mr. Bilbray. If I can just interject, there is another 
aspect here we don't even talk about, and that is getting the 
policymakers before construction to be looking at the safety. 
The policymakers, when you are talking about doing alignment--a 
good example is alignment. Let's talk about the Metro when it 
goes over through Alexandria. How many times when a policymaker 
on the board decides to go with an engineering that is an 
elevated platform are they informed and sensitized to the fact 
of the increased risk of maintenance on elevated platforms as 
opposed to ground-level or underground?
    That kind of thing needs to be interjected not just when 
you are doing operation, but when you are designing the 
program, when you are deciding right-of-ways. All of this needs 
to be front-loaded so you are not trying to make do afterwards.
    Mr. Rogoff. Mr. Bilbray, we completely agree. And, indeed, 
our current regulations ask the States to set up, where you are 
introducing a rail transit system in a State for the first 
time, we ask the States to establish their State safety office 
so they can be in conversation with the designers of the 
system, rather than just come in on the first day of operation.
    I will tell you, because of our limited authority, we have 
sometimes had to really pull some teeth to get the Governors to 
stand up to that responsibility.
    Mr. Bilbray. And I want to point out it is even to the 
point of alignments, because sometimes alignments require 
certain type of construction that is not as safe as others, so 
it needs to be a consideration right from the get-go, before 
you even decide where the line is going to go.
    Mr. Van Hollen. Thank you. Thank you for your testimony, 
Mr. Rogoff.
    Mr. Rogoff. Thank you, sir.
    Mr. Van Hollen. Now we are going to bring up the next 
panel: Mr. Sarles, Mr. Benjamin, Mr. Bassett, Ms. Jeter, and 
Mr. Alpert.
    I want to welcome all of our witnesses on our second panel. 
On this panel we have Mr. Richard Sarles, who is the interim 
General Manager of Metro, who was appointed by the Board of 
Directors and began his duties March 29th of this year.
    Welcome, Mr. Sarles.
    We have Mr. Peter Benjamin, who is the chairman of the 
Metro Board of Directors and a member of that board since 2007.
    Welcome, Mr. Benjamin.
    Mr. Matt Bassett, who is the chairman of the Tri-State 
Oversight Committee of Metro [TOC].
    Ms. Jeter, Ms. Jackie Jeter, who is the president of the 
Amalgamated Transit Union Local 689. Welcome.
    And Mr. David Alpert, who is the vice chairman of the Metro 
Rider Advisory Council.
    Thank you all for appearing before the committee today. As 
you heard from the first panel, it is the custom of this 
committee to swear in the witnesses. If you could please all 
stand and raise your right hands as I administer the oath.
    [Witnesses sworn.]
    Mr. Van Hollen. Let the record reflect that all witnesses 
answered in the affirmative.
    At this time, each of you will have 5 minutes to deliver 
your oral statement. As you heard, the yellow light means you 
have 1 minute remaining. The red light means stop.
    Mr. Sarles, as you begin your testimony, let me just 
congratulate you on your new assignment. Obviously, you are 
coming into a very, very tough situation, but we are all, I 
think, looking forward to working with you to make sure that 
the Washington Metro system is as safe and as reliable and as 
efficient as possible.
    With that, if you could please begin.

 STATEMENTS OF RICHARD SARLES, METRO INTERIM GENERAL MANAGER, 
   WMATA; PETER BENJAMIN, CHAIRMAN METRO BOARD OF DIRECTORS, 
  WMATA; MATT BASSETT, CHAIR, TRI-STATE OVERSIGHT COMMITTEE; 
 JACKIE JETER, PRESIDENT, AMALGAMATED TRANSIT UNION LOCAL 689; 
   AND DAVID ALPERT, VICE-CHAIR, METRO RIDER ADVISORY COUNSEL

                  STATEMENT OF RICHARD SARLES

    Mr. Sarles. Thank you very much, Mr. Chairman, Ranking 
Member Bilbray, and members of the committee. Thank you for the 
opportunity to testify today.
    I am Richard Sarles, general manager of Washington 
Metropolitan Area Transit Authority [WMATA or Metro]. I became 
Metro's general manager less than a month ago. In my first few 
weeks here I have met with employees, customers, and other 
stakeholders, and have reviewed the findings of oversight 
agencies.
    Based upon those meetings and findings, we have drafted a 
6-month action plan to move Metro forward, addressing our 
greatest challenges, which I see as safety, service 
reliability, and budget.
    Let me begin with safety. We have taken a number of actions 
in recent months to improve safety, including, for example, 
hiring a new chief safety officer and adding 12 new positions 
to our safety department. We now have safety officers assigned 
to each bus and rail division to improve communications between 
safety and operational personnel. And we are working hard to 
improve the safety of our track workers. We established a 
working group which includes several Metro departments, as well 
as union representatives and others. That group is creating a 
new roadway worker protection manual and developing a new 
roadway worker training plan.
    While we have made progress with regard to safety, we still 
have work to do. We have established the following six safety-
related priorities for the next 6 months: One is to fill the 
remaining safety department vacancies and increase training.
    Two, continue to accelerate close-out of open safety-
related audit findings. Let me say here that I am particularly 
focused on responding to the recommendations in the FTA audit. 
Our action plan is attached to my written testimony.
    Three, develop an incident tracking and safety management 
reporting system.
    Four, encourage near-miss reporting, including publicizing 
our anonymous employee safety hotline and strengthening 
whistleblower protection.
    Five, complete a new right-of-way worker protection manual 
and revisions to the Metro rail safety rules and procedures 
handbook.
    Six, complete a self-assessment of safety-related internal 
controls and initiate a thorough assessment of safety culture.
    Turning to the reliability of our service, I think it is 
fair to say that the quality our customers experience is the 
key to the continued success of our system. We are taking steps 
to improve the on-time performance of all our modes, as well as 
the availability of our elevators and escalators. Still, we can 
do better.
    We have established the following six priorities for 
improving service reliability over the next 6 months: One, 
increased training for front-line employees and supervisors.
    Two, create transparent performance tracking and reporting 
systems.
    Three, revise inspection and maintenance procedures to 
reflect changes in operations.
    Four, compile a new schedule adjustment on the Red Line. 
This new schedule will allow for more time for customers to 
board trains at our busiest stations and will involve more A-
car trains running to the ends of the line.
    Five, initiate an external assessment of elevator/escalator 
maintenance and repair programs.
    Six, continually re-emphasize safety and state of repairs 
top priorities. Maintenance of vehicles, tracks, structures, 
signals, and other infrastructure in a good state of repair has 
a direct impact on the safety and reliability of the Metro 
operation.
    The most effective action we can take to improve 
reliability is to improve the physical condition of our system. 
This leads me to a topic which has a direct effect on our 
ability to improve service reliability, Metro's budget.
    Fiscal year 2011 is likely the most difficult year 
financially speaking that Metro has ever had to face. The 
economic slow-down means that ridership and revenue are down, 
while costs have continued to rise. This imbalance created a 
$189 million gap in our fiscal year 2011 operating budget.
    Tomorrow the Metro board will begin considering how to 
close the budget gap. Without knowing what they will decide, it 
is fair to say that balancing Metro's budget will require hard 
choices. The economic downturn has affected everyone in this 
Nation, and, unfortunately, Metro is not immune.
    National economic conditions will have an impact on our 
capital budget, as well. Funding constraints require Metro to 
limit our capital program for the next 6 years to only the most 
critical, must-do projects such as replacement of our oldest 
rail cars and buses. We will not be able to make other 
improvements to our service, such as running additional A-car 
trains.
    Over the next 6 months, we intend to accomplish the 
following objectives related to Metro's budget: One, educate 
policymakers, customers, and members of the public about their 
role in funding Metro.
    Two, implement the board-approved 2011 budget.
    Three, manage the transition of our next 6-year capital 
program currently being developed, including responding to any 
recommendations in the final NTSB report on the June accident.
    Four, initiate a discussion with regional and Federal 
stakeholders on Metro's long-term fiscal outlook to identify 
both challenges and solutions.
    The basic challenge is this: the Metro system must be 
brought into a state of good repair. Unless there is renewed 
commitment to this goal, the system will continue to degrade.
    Mr. Chairman, 6 months from now I intend to deliver an 
interim performance assessment report to Metro's board, but we 
do not have to wait until then to track our progress. We are 
developing products that will allow the public to see how we 
are doing. We expect to launch the first of those monthly vital 
signs reports shortly. We are committed to improving 
transparency and communication with our customers and other 
stakeholders, including Congress.
    Thank you for the opportunity to testify today. I will be 
glad to answer any questions.
    [The prepared statement of Mr. Sarles follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Van Hollen. Thank you, Mr. Sarles.
    Mr. Benjamin.

                  STATEMENT OF PETER BENJAMIN

    Mr. Benjamin. Mr. Chairman, Ranking Member Bilbray, and 
members of the committee, I have worked for the Washington 
Metropolitan Area Transit Authority for 25 years, a system to 
which I am very dedicated, and I am pleased to appear before 
you today as the chairman of the Board of Directors to speak 
with you about one of my favorite subjects.
    Metro's job is not to run buses and trains; it is to move 
people, to connect origins and destinations, to create 
transportation alternatives for the region, and to support the 
operations of the Federal Government. It is to get people to 
work, to school, to the Rayburn Building, and to the zoo. Most 
of the people who ride Metro bus or Metro rail are not 
dependent upon transit. They own cars. They will ride Metro 
only if it is safe, clean, reliable, comfortable, and at a 
reasonable price.
    Our challenge is to provide that safe, clean, reliable, 
affordable service. At the same time, we need to improve our 
communication with our riders so that they have a better 
understanding of Metro's limitations. We have a 34-year-old 
rail system, which is not like it used to be when it was new. 
It has old rail cars, track bed, power equipment, and 
communication systems. More than half of our bus garages are 
over 50 years old, and some buses are 15 years old.
    As the equipment and facilities age, they become less 
reliable, break down more often, and need more maintenance. We 
will have more service disruptions and delays than when the 
system was new--planned ones to rehabilitate the infrastructure 
and unplanned ones because of reduced equipment reliability. 
And we need to ensure that our customers are informed and 
prepared for that reality.
    Above everything else, we must provide safe and reliable 
service, and in the past year we have had accidents which have 
shocked and saddened all of us.
    We need to focus on three goals: we need to build a new 
safety culture throughout the organization, from the board and 
the general manager to the bus and rail operators, mechanics, 
and track walkers; we need to invest in the equipment, 
facilities, and personnel needed to enhance safety; and we need 
to create the policies and procedures that enhance system 
safety. In doing so effectively, we will restore public 
confidence in the safety and quality of our service and we will 
rebuild trust among policymakers, legislators, and other 
stakeholders.
    I know that these goals will not be achieved overnight, but 
we are determined to accomplish them.
    Metro faces the same financial issues which practically 
every other major transit system in the United States does. In 
this period of economic decline, many of our revenue sources, 
such as advertising and fares, have decreased, and the funds 
available for our subsidies have declined. Transit systems 
throughout the country with dedicated sources of subsidies such 
as sales taxes have seen those funds decline and have had to 
cut staff, reduce service, and increase fares, as well as defer 
capital projects in order to use those funds to fill operating 
gaps.
    Those transit systems which look to local governments to 
provide subsidies, as we do at Metro, find those governments 
dealing with lower tax revenues and the need to cut 
governmental services. Transit becomes one of a number of vital 
services that must be funded with fewer resources available.
    We are exceptionally pleased that our State and local 
funding partners have demonstrated a long history of strong 
financial support for this system. That strong support is 
continuing even in these tough economic times, as our 
jurisdictional partners are proposing to provide over a half 
billion dollars to support Metro operations in fiscal year 
2011.
    At a time when the Maryland transportation trust fund is 
woefully short of revenue and the State is reducing its highway 
expenditures drastically, that State, which I represent on the 
Metro board, will be increasing its operating contribution to 
Metro in 2011.
    Metro's capital needs inventory identifies investments 
totaling $11.4 billion over the next 10 years. This committee 
led the effort to obtain additional Metro funding for capital 
rehabilitation and replacement, the first installment of which 
was appropriated last year. That funding will go a long way 
toward helping us to meet our capital needs; however, our 
projected funding over the foreseeable future does not bring us 
to where we need to be.
    Again, this is not unique to Metro. A recent study referred 
to by Administrator Rogoff by the Federal Transit 
Administration found that the seven largest transit systems in 
the United States, including Metro, currently have a backlog of 
state of good repair needs totaling $50 billion. Going forward, 
the study concluded that these systems would need an additional 
$5.9 billion per year so as not to fall further behind.
    We have been fortunate in that our State and local funding 
partners have demonstrated strong support on the capital side, 
just as they have done on the operating side. Over the last 6 
years, they have provided Metro with $525 million more in 
capital contributions than what was needed just to match 
Federal funds. The key, however, rests with you and your 
colleagues and the administration. Increased support for the 
state of good repair needs of older systems is essential in the 
next surface transportation authorization if we and other 
systems throughout the Nation are to continue to be able to 
provide safe and reliability service.
    Metro's board is extremely pleased that it was able to 
convince a leader of Richard Sarles' experience and capability 
to delay his retirement and help us address our challenges 
while the board seeks a new permanent general manager for the 
agency. In his first few weeks here, Mr. Sarles has 
demonstrated a deep understanding of the issues facing Metro, 
and he is moving forward aggressively in a number of areas, as 
he has covered in his testimony.
    The Metro board is on the verge of selecting a search firm 
which will conduct a national and international search for the 
next permanent general manager. Understanding that we wish to 
move forward as quickly as possible, we intend to take the time 
needed to conduct a comprehensive recruitment process so that 
we can identify the best candidate for what I can honestly say, 
having seen it close up, is one of the toughest jobs in the 
transit industry.
    Mr. Chairman, in conclusion I simply want to say Metro's 
mission is to move people safely, reliably, and comfortably. We 
are committed to carrying out our mission.
    [The prepared statement of Mr. Benjamin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Van Hollen. Thank you, Mr. Benjamin.
    Mr. Bassett.

                   STATEMENT OF MATT BASSETT

    Mr. Bassett. Mr. Chairman, Ranking Member Bilbray, and 
distinguished members of the committee, thank you for the 
opportunity to testify today on the important topic of the 
Washington Metropolitan Area Transit Authority's rail safety 
challenges and initiatives. Today's hearing is of great 
importance to the rail transit industry, the citizens of the 
Washington area, and our Nation's transit riders and workers as 
a whole.
    The Tri-State Oversight Committee [TOC], is a joint effort 
between Maryland, Virginia, and the District of Columbia to 
oversee WMATA's rail safety and security efforts. We review 
their accident investigations, approve key safety documents, 
evaluate corrective actions, and periodically audit their 
safety procedures and programs.
    Dating back even before the tragic Red Line collision of 
June 22, 2009, the TOC noted significant shortfalls in Metro's 
safety efforts. Accident investigations were not always 
completed. Safety hazards sometimes went reported, while others 
were reported to no avail. WMATA's responses to the TOC's 
information requests were often delayed or inadequate. Audit 
findings went unaddressed, and, as our committee found in a 
recent assessment, significant gaps existed between operating 
rules and actual practice.
    The rail agency's significant funding challenges only 
compounded the inherent hazards of an aging rail system. 
However, I am here today to inform the committee and the 
Congress that in the last 10 months WMATA has made significant 
and commendable progress in changing its agency culture, in 
addressing backlogged action items, in improving their 
responsiveness to our committee, and in bolstering safety 
communication across departments. Initiatives such as their 
cross-discipline, multi-agency right-of-way worker protection 
task force and inter-departmental efforts to resolve open 
corrective actions have charted a way forward.
    Our policy leadership and committee have also taken crucial 
steps to strengthen and improve our oversight of the Metro rail 
system's safety. Yesterday morning, Governor Robert McDonnell 
of Virginia, Governor Martin O'Malley of Maryland, and Mayor 
Adrian Fenty of the District of Columbia jointly committed to 
an interim program to augment the TOC's accountability, 
independence, and authority. These measures coordinate with 
policymakers, improve public access to our reports and 
information, provide the TOC Chair with additional authority, 
and start to evaluate long-term plans for Metro safety 
oversight.
    Along with committee monthly meetings with the WMATA 
interim general manager and quarterly public interaction with 
the WMATA board, most recently on April 10th, the TOC is 
entering a new phase in our relationship with Metro, as well as 
with the riding public. WMATA still faces major hurdles in 
improving the system's safety, especially those related to 
improving safety communication, addressing backlogged action 
items, and resolving open investigations. It is essential that 
the transit agency maintain the momentum it has worked hard to 
generate in recent months.
    The recent Federal Transit Administration audit provided a 
valuable assessment for WMATA and the TOC, and we are working 
diligently to respond to these findings prior to the deadline 
early next month.
    The TOC looks forward to working with WMATA, the FTA, the 
National Transportation Safety Board, and the Congress to 
sustain this progress and to ensure that it translates into 
real and lasting change.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Bassett follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Van Hollen. Thank you.
    Ms. Jeter.

                   STATEMENT OF JACKIE JETER

    Ms. Jeter. Good morning to the committee. Thank you for 
your invitation to appear before you today to share our 
insights, concerns, and suggestions on improving safety and 
service within the Metro rail system.
    My statement details issues that you are well acquainted 
with, so I will focus on items that you may not be familiar 
with.
    WMATA's apparent inability to initiate effective internal 
investigations based upon the evidence to institute effective 
safety changes continues to inhibit their ability to move 
toward a safer system. Unfortunately, we meet and talk a lot, 
but action is needed. Failure to implement needed procedural 
changes and the lack of oversight to do it quickly continues to 
compromise safety and service delivery.
    I would note that there is a tendency to blame individual 
employees instead of looking for underlying systemic causes of 
safety-related incidents.
    Local 689's experience concerning the investigations lead 
us to belief that WMATA has not implemented several key 
measures that would make the Metro rail system safer. Urgency 
and rapidity will be the hallmark of suggested changes we are 
offering below. WMATA must consider instituting the following 
without delay: multiple layers and redundancy of safety 
protections, codification of standards for track worker safety 
similar to the Federal Railroad Administration track worker 
safety standards, clear and concise communication between 
workers and controllers, clear notification and designation of 
work areas and zones on the right-of-way, effective worker 
safety training and retraining, supervisory enforcement of 
safety standards, a contractual process for WMATA employees to 
appeal the standards they believe to be incorrect or unsafe, 
such as a safety appeals board, meaningful whistleblower 
protection to ensure that employees are not fearful of 
reporting precise safety problems, effective labor/management 
safety committees, WMATA's commitment to rapid development and 
implementation of procedures and standards that are calculated 
to improve safety immediately and in the long term.
    Short- and long-term solutions likely to address budget 
shortfalls currently confronting WMATA must be seen in the 
context of the impact insufficient funding has on workers, 
riders, businesses, and overall development in the three 
jurisdictions hosting the system. Public transportation will 
never be profitable. It is an expensive public service. The 
critical nature of funding and the lack thereof has a major 
impact on the riding public and WMATA employees who are our 
members. We have struggled with wage and benefit issues for the 
last 3 years and have been victimized by WMATA's failure to 
adequately plan for expected labor cost increases.
    Beyond the impact of wages and benefits is the impact of 
the public as service cuts are becoming standard practice to 
help close the budget gaps. I will emphasize the need for 
flexibility in capital budget allocation in order to allow for 
capital funds to cover operating costs.
    The Union has suggested the following alternative 
approaches to job and service cuts WMATA believes necessary 
because the budget shortfalls it is experiencing.
    Review carefully the formula grant that is used as a basis 
of Federal funding to consider adjusting the percentage 
allocated to Metro. Look at reducing [sic] the number of 
parking spaces at Metro stations to induce greater use of the 
system. Lobby to establish a dedicated funding source from the 
jurisdictions. Consider recapturing tax incentives given to 
businesses that surround Metro stations. They should bear a 
greater share of the cost because they gain a greater benefit 
as a result of their location.
    The Federal transit benefit should be indexed to both 
increase use and inflation. It would get an annual increase 
automatically to reflect the real cost of providing increased 
service and any increased costs resulting from inflation.
    Consider supporting the development of the outer spokes of 
the system to increase ridership and revenue from business 
development likely to occur around the stations.
    Local 689 supports the selection of a permanent general 
manager for WMATA who is a seasoned, transit top-level manager 
with vision, knowledge anchored by the political savvy most 
likely to garner, private, and government support that will 
nurture the critical system in our Nation's Capital.
    We believe the general manager should be a person capable 
of forming alliances, fostering tri-State cooperation, 
encouraging legislative affinity for addressing the needs of 
mass transit, while possessing the background that comes from 
long-term involvement in managing and developing a sizable 
system. But without true overhaul of the Metro board, any 
general manager selected will have serious pressure because of 
the micro-management style.
    I will be pleased to address any questions you might have 
in regard to my testimony, and I thank you on behalf of my 
members and the riding public.
    [The prepared statement of Ms. Jeter follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Van Hollen. Thank you, Ms. Jeter.
    Mr. Alpert.

                   STATEMENT OF DAVID ALPERT

    Mr. Alpert. Thank you, Mr. Chairman, Ranking Member 
Bilbray, and members of the committee. Thank you for inviting 
me to testify today. My name is David Alpert, and I am the 
District of Columbia vice chair of the WMATA Riders Advisory 
Council. I also report on and advocate for transit and better 
urban design through my Web site, greatergreaterwashington.org.
    The Riders Advisory Council has 21 members appointed by the 
WMATA board from the District of Columbia, Maryland, and 
Virginia. Members use Metro bus, Metro rail, and Metro access, 
and represent a diverse mix of ages, backgrounds, and ways in 
which they use Metro.
    Metro experienced its worst year in history in 2009 and 
suffered a substantial loss of public confidence. The June 2009 
crash on the Red Line and subsequent track worker fatalities 
catalyzed that change and accelerated awareness of the larger 
problem, the growing disrepair of the Metro infrastructure.
    Failing to keep the system in a state of good repair 
seriously threatens safety. While certainly not as dramatic as 
the past year's incidents, crowded platforms following service 
disruptions, crumbling platform tiles, and out-of-service 
elevators and escalators are significant recurring safety 
concerns. Renewing the local Metro matters funding agreement, 
which is currently under negotiation, is essential.
    The Council appreciates Congress' support for the $150 
million annual Federal capital funding for WMATA last year and 
hopes Congress will continue to provide these funds. 
Unfortunately, even continuing that appropriation annually and 
renewing the Metro matters agreement leaves WMATA about $3.4 
billion short of its identified capital needs over the next 10 
years.
    In addition, WMATA must secure support for its operating 
budget. Closing the currently projected $190 million operating 
budget gap for fiscal year 2011 will likely require both 
significant fare increases and substantial service cuts.
    Riders are not the only ones who benefit from good transit. 
The entire region benefits economically. The Federal Government 
benefits from greater productivity. And drives benefit from 
reduced congestion on roadways. For that reason, the Riders 
Advisory Council and transit advocates have asked local 
jurisdictions to increase their contributions enough to 
forestall severe service cuts.
    The northern Virginia counties have taken the greatest 
steps in this area, explicitly making room in their budgets for 
greater support for transit. Some representatives, including 
many Maryland State delegates and county council members, have 
expressed their support; however, that has not yet translated 
into meaningful action, and there remains a great deal of 
uncertainty about the amount the funding jurisdictions can or 
will ultimately provide.
    Safety must top the list of Metro's core values. Effective 
oversight is also critical to maintaining safety and customer 
confidence in transit. Still, safety cannot exist in a vacuum. 
Statistics show that commuting by rail is approximately 34 
times safer than driving. Mandates that improve safety while 
maintaining service quality can greatly enhance transit. 
Mandates that impair service in the long run in the name of 
safety will only drive commuters to other more dangerous modes 
of travel.
    We are pleased that Congress is taking a strong interest in 
the safety and success of the Washington area transit system. 
At the same time, safety for commuters does not start and end 
with Metro rail. A USDA employee was killed after the recent 
snow storm walking to the Branch Avenue Metro Rail Station in 
Prince George's County, MD, where the sidewalks had not been 
cleared. A military truck driver closing roads for the recent 
nuclear security summit killed a bicyclist last week right in 
downtown D.C.
    WMATA safety issues have received considerable press 
recently, but the degree of press attention has been so great 
specifically because Metro rail fatalities are so rare, while 
fatalities on roadways are common to the point that we have 
become inured to these tragedies.
    This Congress should not ignore these larger safety 
concerns and could draw needed attention to them by also 
conducting oversight into the ways in which our roadway 
designs, snow removal policies, and traffic law enforcement 
succeed or fail at maximizing the safety of commuters on all 
modes.
    A safe, reliable, well-maintained, and adequately funded 
Metro system will enrich the entire region notably, including 
the Federal Government.
    I thank you for the opportunity to provide testimony and 
would be happy to answer any questions you may have.
    [The prepared statement of Mr. Alpert follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Van Hollen. Thank you, Mr. Alpert. I must say your Web 
site that you reference is a very useful resource for all of 
us.
    Mr. Alpert. Thank you.
    Mr. Van Hollen. And I join you in calling upon our local 
jurisdictions to do what they can now to help ease the 
difficult choices that Metro is going to have to make that you 
pointed out.
    Let me start out by asking some questions of Mr. Sarles and 
Mr. Benjamin.
    We heard from Mr. Rogoff in his testimony, and obviously 
you have familiarized yourself with the FTA report. There was 
also the report that was commissioned by WMATA by the former 
general manager, Mr. David Gunn, and I assume you are familiar 
with that report; is that right?
    Mr. Sarles. Yes, sir.
    Mr. Benjamin. Yes.
    Mr. Van Hollen. OK. You have no objection, WMATA has no 
objection to those recommendations being made public, do you?
    Mr. Benjamin. The recommendations by Mr. Gunn?
    Mr. Van Hollen. Mr. Gunn, yes.
    Mr. Benjamin. This was a confidential report that was given 
to our board, and we have summarized the recommendations that 
he made, and that has been provided to the press. We would 
appreciate it if the report, itself, were left as a 
confidential report.
    Mr. Van Hollen. I would encourage you and will work with 
you to try and make sure that all the recommendations that were 
made to WMATA are made available to the public. It seems to me 
WMATA is a public agency. This was done with the purpose of 
trying to strengthen the safety of the system, and I think I 
would strongly encourage you to work with us to make sure that 
those findings and conclusions are made available.
    Mr. Bilbray. Mr. Chairman, might I inquire here?
    Mr. Van Hollen. Yes. I think that we will pursue this 
between now and the end of the hearing, because we feel 
strongly that this information--that the public has a right to 
know this information.
    Mr. Benjamin. We will be happy to work with you on that.
    Mr. Van Hollen. I don't know if--well, let me move on, 
because I am going to ask you some questions about the Gunn 
report, which are also relevant to this hearing.
    Mr. Sarles, have you had a chance to familiarize yourself 
with the Gunn report?
    Mr. Sarles. Yes, I have.
    Mr. Van Hollen. OK. So my question to the two of you is: we 
have now heard from Mr. Rogoff. You have heard his testimony, 
which said we need a top-to-bottom change in the safety culture 
at WMATA. He said safety concerns were marginalized. He has 
gone on to issue his report with specific recommendations, and 
Mr. Gunn has also issued a report with recommendations. My 
question to the two of you, one as interim general manager the 
other as chairman of the board: do you agree with the 
recommendations that were made by the administrator? To the 
extent you do not agree, please elaborate. And do you agree or 
disagree with the recommendations that were made by Mr. Gunn? 
That is why it is going to be important that we make this 
information available to the public.
    Mr. Sarles. Simple and clear answer is yes, I agree with 
the FTA recommendations, and yes, I agree with Mr. Gunn's 
report, based on my own experience in the industry.
    Let me talk to the FTA recommendations first. They hit on 
communications, they hit on hazard analysis, they hit on 
roadway worker protection. That is the basic areas when you 
look at the details.
    My first impressions--only 3 weeks here--is certainly there 
is need for significant improvement in communications within 
WMATA. And this doesn't extend to just safety, but it is the 
nature of the current nature of the operation. I think that is 
just reflective of what has happened over the last few years in 
terms of funding, changes in administration, reorganization, 
changes in leadership, safety officer being one case, general 
manager being another case. So there is a tendency to go into 
silos. That has to be changed, and I have already started 
working on that.
    With regard to hazards analysis, to me one of the important 
things is that you anticipate problems before they become 
accidents. Doing hazard analysis, getting near-miss reports, 
getting good upward and downward communication helps you 
identify those problems before they become major problems and 
address them and avoid those accidents, so that is extremely 
important.
    The whole issue of roadway worker protection is extremely 
important. When I worked at Amtrak, I personally got trained in 
that because I was out in the right-of-way. I understand how 
important that is. So there has been a very active effort 
underway, started certainly before I got here, involving the 
staff that work there, the unions, in a very collaborative 
approach, including representatives from the TOC, to develop a 
very robust worker protection program. That is well underway. 
It is expected that the actual manual be issued by the end of 
the year.
    One of the most important things that goes with all of this 
is training. People have to be trained to understand what is 
right, how things should operate, and then that should be 
reinforced. That has to be done, and that is some of the points 
that Mr. Gunn made. I agree with him that the fact that there 
has not been sufficient investment in state of good repair, 
which is not unusual for this particular Metro rail--it is the 
same thing in other parts of the Nation--does affect the level 
of reliability operation, certainly over time could affect the 
safety of the operation, but safety has to remain No. 1 
priority. And you have to have the leadership in place, a 
stable leadership in place that continually focuses on safety 
and state of good repair. If you continue to change the 
leadership, it impacts the ability to do that.
    Mr. Van Hollen. Thank you.
    Mr. Benjamin.
    Mr. Benjamin. Mr. Chairman, let me first of all associate 
myself with Mr. Sarles' remarks. I agree with what he said, and 
I fully support all of the positions relative to the FTA 
report. I think it has brought up some significant issues, all 
of which we have to do substantial work on, and I am very 
pleased that Mr. Sarles has started on that process, and we 
have every intention of completing it and dealing with the 
issues that have been raised and, in particular, those 
associated with the safety culture and communications.
    One of the communications issues which Mr. Gunn also raised 
was the concern about what he called kill the messenger. That 
is, where a staff person tries to report information up the 
line and, instead, is criticized for it as opposed to supported 
for it and told that if you have identified a safety issue it 
is a great concern. Those kinds of things need to be changed, 
and we are going to have to make a major effort to improve our 
communications and change the overall culture of the system 
from the bottom to the top.
    There are areas in Mr. Gunn's report where he has made 
recommendations that reflect his personal bias as an individual 
or his personal history. As you know, he was with this 
Authority for a limited period of time as a general manager, 
and, in fact, during that time he was the person who appointed 
me the chief financial officer of Metro, and so I am a strong 
advocate of Mr. Gunn, and I was one of the people who strongly 
wanted him to come in. But he is one voice among many, and all 
of his opinions are not necessarily those that we on the board 
would fully agree with.
    What we did is we asked him to come in, knowing that he had 
that type of experience and tendency to make reports, so that 
he could be one of many voices that we could hear in making 
decisions.
    That having been said, I am not sure I agree with his 
suggestions for organizational structure, would tend to move 
toward traditional rail organizations, inner city rail 
organizations and how they would structure, as opposed to 
transit rail organizations, but that is something that I think 
I would rather leave to the general manager, the interim 
general manager, and the permanent general manager when they 
are selected.
    And I think his positions on governance reflect an 
experience that he had many years ago, and not necessarily the 
way that the board and the senior staff at Metro work at the 
present time.
    Mr. Van Hollen. Right.
    Let me just be clear. I want to commend the board for 
bringing him in, No. 1, and recommendations. I think that those 
recommendations are all in your binders. As a committee, we 
believe the public has a right to know. We intend to release 
the report. I think it is important that it be done with your 
testimony, because I think no one is suggesting that it is 
going to be adopted, it has been adopted by WMATA. They are 
recommendations he made. You may agree with some of them, you 
may disagree with some of them. Within that context, I think it 
is important to make it available, because it is part of the 
public discourse. You, as stewards of WMATA, are obviously 
critical to that oversight process, and it should be part of 
the dialog.
    I appreciate the fact that you indicated where you may have 
some disagreements with his recommendations going forward.
    Let me turn it over to Mr. Bilbray.
    Mr. Bilbray. Thank you very much.
    First of all, I think, Mr. Benjamin, I think I should give 
you a chance to respond to my diatribe about the system's 
preemption of use of technology and the way we stacked it up. I 
mean, do you have any defense or counter to my statement about 
the fact that we are actually using technology in a way that 
was assumed to be the cutting edge for the future in the 1960's 
and the early 1970's, but by 1980 we knew that--at least a lot 
of people were claiming that was a wrong assumption?
    I think in all fairness we ought to remember that a lot of 
these systems back in the late 1960's and early 1970's were 
designed with the assumption there would not be an operator in 
the cab, and later that was stuck in.
    Your comments on that, as somebody who has been on the 
board?
    Mr. Benjamin. Congressman Bilbray, let me first note that 
one of the observations that you made is really important, and 
it applies very strongly to Washington Metro. When the Metro 
system was originally put together, when our compact was 
passed, the direction was for Metro to build but not operate a 
rail system, and it was not to run a bus system. So the people 
who originally designed and built Metro were not operators and 
were not trying to deal with operators. It was only after the 
system was already under construction and most of the policy 
issues which you have discussed had already been decided by 
those people that, in fact, the Congress came back to Metro and 
said, well, why don't you run it also, and while you are doing 
that why don't you run the bus systems in the Washington area.
    So the original concept of Metro was not the integrated 
build and operate, and so that did cause a number of issues 
throughout the design of the system that we probably today 
would not have done the same way knowing what we know. I 
suspect that is true about every rail system.
    Specifically on automation, I would say that is a really 
difficult issue. Certainly if you are building a light rail 
system, I would agree completely with the concept that you have 
put forward that you don't want to have full automation, 
because there are too many potential ways that there can be 
incursion onto the right-of-way. In a heavy rail system, there 
is a balance here, and I am not sure where that balance is. 
Certainly, you are absolutely right if you take all functions 
away from the operator you have reduced the attentiveness of 
that operator and the ability to respond. Now, that having been 
said, we have multiple cases where operators have, in fact, 
respected very effectively in overriding the automatic system.
    Mr. Bilbray. Let me interject here. I understand that, and 
I understand that the assumption is that automation allows you 
to basically get more ridership, more trains, that the safety 
boundary there is better with automation than hand operated. 
That is the theory. But, again, it comes back down to the fact 
of that response time of somebody who is not in operation. The 
theory doesn't seem to pencil out when you come down to real-
life facts that people, after year after year of not 
responding, has a very slow response time, right?
    Mr. Benjamin. Congressman Bilbray, one of the things that 
we have discovered is that people tend to pay less attention, 
as you might imagine, if they are in an automated system.
    That having been said, one of the things you can do is to 
increase the number of tasks that they do have to carry out 
while they are in that system, and, as Metro has operated as an 
automated system, keep in mind that we don't even have to do 
station announcements with our operators opening and closing 
doors and several other functions. Those functions have been 
deliberately turned over to the operators to cause them to keep 
their attention.
    That having been said, Congressman, I don't know where that 
line is, I must admit. That is certainly worthy of substantial 
additional research.
    Mr. Bilbray. OK. And let me just say, as somebody who has 
had to put together the governance board, I totally understand 
why the unanimous issue was brought up. You have three 
sovereign States that do not want two basically dictating to 
the other. I understand that. The issue of rotation of Chairs, 
though, may seem symbolic, but operationally it is a very, very 
important issue because if you rotate that makes the general 
manager really the front line of governance, and the fact is 
that the rotational really does not give you somebody on the 
board who has hands-on, long-term responsibility on this issue.
    Has there been any discussion at all about modifying that, 
or is that locked into this tri-State agreement?
    Mr. Benjamin. No, Mr. Congressman. It is not locked into 
the agreement, it is a practice of the board, as opposed to any 
legal requirement.
    Mr. Bilbray. I appreciate that courtesy.
    The operational issue from the Union's point of view?
    Ms. Jeter. I agree with you wholeheartedly. As an 
operator--I operated a train from 1987 to 1997, when I became 
an interlocking operator--operators have complained about the 
automation of the system, and they did then, even though now 
they are operating in manual, because it took away all of your 
skills. Unless you worked a yard operation--and you have a two-
man team in 9 yards, and out of 400-some operators you can tell 
how many people actually get the opportunity to do that. That 
is what hones your skills. And there was a constant, I think, 
behavior of taking away the duties of the operator. Making a 
station announcement is one aspect of it, but if your train 
broke down you didn't even get the opportunity to go back and 
troubleshoot it to repair it. Someone else did that. So you 
eroded your skills on a regular basis.
    Then we went into the process where we used to have kind of 
like a pre-certification day where you would more or less go 
into a training mode and you re-train and you kind of hone your 
skills a little bit and then you would certify. That was taken 
away.
    So I think where safety is concerned there has been a 
process where the operator has really become very redundant. 
And then all of the sudden, when we start having system 
failures, one that is not talked about on a regular basis was 
when the operators went to total door opening, because there is 
a problem with that, that is not talked about. The operators 
now open and close the doors in manual, and even through that 
process they are thrust back into this manual operation and 
they are expected to perform the same way that the train would 
when it is operating in automatic with the scheduling and all 
of that, and it does not work that way.
    Mr. Bilbray. Thank you.
    Thank you, Mr. Chairman.
    Mr. Van Hollen. Thank you.
    Ms. Norton.
    Ms. Norton. First of all, I want to say how much I have 
appreciated this testimony. I always judge testimony by whether 
I learn something. Particularly from your, Mr. Sarles, did I 
learn that some measures have been taken to improve safety. 
That was a very important goal and objective of this hearing.
    Could I ask all of you whether you would support 
legislation to create an independent TOC funded by the 
respective State legislatures? Could I just ask all of you for 
a yes or no answer?
    Mr. Sarles.
    Mr. Sarles. I think it is important that the oversight 
agency be independent and that it be well funded and well 
resourced to be effective.
    Ms. Norton. Well, of course you have heard testimony of Mr. 
Rogoff beforehand that it is unprofessional to fund by those 
being examined, shall we say, so it is a two-part question. Do 
you favor it? And do you favor the independence that would come 
from direct funding from the legislatures of the respective 
jurisdictions?
    Mr. Sarles. And I favor them being independently funded, 
and that they should be independent.
    Ms. Norton. Thank you. Mr. Benjamin.
    Mr. Benjamin. I agree with the statements that Mr. Sarles 
made. I would add to that and point out that at the present 
time they are independently funded. They are not funded by 
Metro, they are funded by----
    Ms. Norton. Well that is important for the record. They are 
not funded----
    Mr. Benjamin. They are not funded by Metro. They are funded 
by the States and the District.
    Ms. Norton. What is the present level of funding, Mr. 
Benjamin?
    Mr. Benjamin. The source of the funding is different, I 
believe, in each one of the areas.
    Ms. Norton. Well, each of the three jurisdictions. Mr. 
Bassett, first of all, do you favor an independent TOC? And if 
you are independently funded, what is your funding and do all 
three jurisdictions contribute, and in what proportions?
    Mr. Bassett. I will try to answer each one of those 
questions individually.
    In response to your first question, it has always been the 
position of the TOC that we support any initiative that overall 
improves the situation of rail safety in the Washington area 
and the Nation. We do not take specific positions on individual 
legislative proposals.
    Regarding where our funding comes from, we are funded by 
the three individual State agencies that----
    Ms. Norton. At what level, please?
    Mr. Bassett. Each jurisdiction contributes its own level of 
personnel in terms of----
    Ms. Norton. I am asking for the budget. What is it?
    Mr. Bassett. I don't have those numbers.
    Ms. Norton. You don't know what the budget is?
    Mr. Bassett. I could not specifically tell you how much 
each jurisdiction spends in salaries and benefits.
    Ms. Norton. Could you tell me what the total budget is for 
the TOC?
    Mr. Bassett. I can tell you how much we spend on an annual 
basis for consultant support.
    Ms. Norton. Do you have a budget, Mr. Bassett?
    Mr. Bassett. Yes, ma'am, we do.
    Ms. Norton. What is the budget?
    Mr. Bassett. We receive----
    Ms. Norton. You are the chairman. What is the budget, sir?
    Mr. Bassett. Each year each jurisdiction contributes 
$150,000 to the TOC through our administrative----
    Ms. Norton. That is $150,000 each?
    Mr. Bassett. Yes, but that does not include salaries, 
benefits, or any of the other support that we receive for 
training or certification.
    Ms. Norton. Where do the salaries and benefits and support, 
where does that funding come from?
    Mr. Bassett. That comes from the governments of the State 
of Maryland, the Commonwealth of Virginia, and the District of 
Columbia.
    Ms. Norton. So, Mr. Benjamin, they are not independently 
funded? They get their salaries--well, I don't know. They get 
their budget from the legislatures. They get their salaries 
somehow, not from the legislatures but from the county and the 
city governments? Maybe that is it. Maybe that is the 
independent funding.
    Mr. Bassett. We are employees of State agencies and our 
funding comes from those individual State agencies.
    Ms. Norton. Mr. Alpert, did you have a contribution to make 
on that score?
    Mr. Alpert. I was just trying to clear up the confusion, 
which I think was that my understanding is that they are not 
employed by a separate organization, the TOC, but rather by the 
Departments of Transportation, so you were sort of asking the 
question----
    Ms. Norton. Well, that is a very important answer. So the 
TOC is not an entity that has employees, including yourself, 
Mr. Bassett?
    Mr. Bassett. No, ma'am. The TOC is a creation of a 
memorandum of understanding between the three jurisdictions. It 
is more of a joint task force between three government 
agencies.
    Ms. Norton. I can understand. That is very important to 
know. We don't have an organization; we have a task force as a 
safety oversight mechanism.
    Ms. Jeter, do you support an independent TOC funded 
independently by the respective jurisdictions?
    Ms. Jeter. Yes, I do. And I believe that the reason why it 
needs to be independent, you know, there is this, for lack of a 
better term, there seems to be a relationship that is there 
between TOC and the Authority, and I believe that, although, 
yes, they have to work together to get information, I think 
that the TOC does need to be more independent so that it does 
make the kind of recommendations and actually see them through 
to its completion to make the safety with WMATA more effective.
    Ms. Norton. Mr. Sarles, I was almost heartened by your 
testimony. I would think your testimony was, alone, an 
important reason to have this hearing, because I am not sure 
the public knows or knew before this hearing the specifics of 
what you say are now in place as some improvements in safety 
mechanisms.
    Could I ask you whether the TOC was a source of any of 
these improvements or whether they were internally generated, 
whether they came from the Gunn report? Could you tell us the 
source of these improvements?
    Mr. Sarles. They came from all those sources. We took into 
account we heard from TOC, from the FTA, from Mr. Gunn, and, 
frankly, from our own employees.
    Ms. Norton. I would like to ask Mr. Bassett to clear up 
some confusion at least I have from his testimony about this 
new plan that has gone into effect. You refer to it in your 
testimony and you say the two Governors and the mayor 
considered both the possibility that FTA might directly take 
over the safety oversight mission for WMATA and that their 
jurisdictions might establish a Metro safety commission in 
place of the TOC. Now, what exactly does this new proposal 
establish?
    Mr. Bassett. The proposal is broken into two individual 
phases. The first, which is the interim phase one, creates a 
TOC policy committee which provides direct access from the TOC 
to policymakers of the three jurisdictions. It increases the 
administrative and executive authority available to the TOC 
chair to respond quickly and effectively to Metro's developing 
safety situations, and it provides for a more stringent 
schedule of reporting of safety concerns, both to our own 
policymakers and to leadership at Metro, including in public 
forums such as at the Metro board meeting.
    That is the interim plan that is going to go into effect in 
very short order, as soon as the memorandum of understanding 
which establishes the TOC can be revised.
    The longer plans that you noted in your question are an 
evaluation of the fact that the three jurisdictions who 
established the TOC want to look beyond the immediate time 
period for a sustainable and strong long-term model of 
oversight at Metro. Obviously, this will depend very heavily on 
legislation that comes from the Congress regarding the FTA's 
proposal.
    Ms. Norton. Well, could I say to all who assemble here, 
don't wait on the Congress please. It is very difficult to get 
something through the House and the Senate. We passed this out 
of committee some months ago, a couple of months ago. It is not 
even to the floor yet. That is why I am concerned and want to 
know more about this Metro safety commission.
    Do any of you see any reason why the local jurisdictions 
can't establish a Metro safety commission now?
    Ms. Jeter. If I can, there is no reason why.
    Mr. Van Hollen. Can you hold for 1 second? I am going to 
have to leave and I want to turn the Chair over to Mr. 
Connolly, who obviously has been focused on Metro for a very 
long time.
    As I leave, I just want to share in the comments Ms. Norton 
is making and I am going to ask Mr. Connolly also to followup 
on the white paper, because I think we all have serious 
questions about when this is going to actually be implemented 
and meaningful, as opposed to in more concept form.
    I really appreciate those questions.
    Without further ado, let me turn it over to Mr. Connolly 
and thank the witnesses.
    Ms. Norton. Thank you, Mr. Chairman. And welcome, Mr. 
Chairman.
    The reason I expressed some concern is I would have 
expected--and I know, Mr. Bassett, you are not the one to 
propose this, but this is a hearing where we have to lay out 
where the responsibilities are. I would have expected something 
like this kind of improved task force to come forward literally 
within the month after nine people lost their lives. Now we 
have almost a year, and we have the same kind of a task force, 
only better reporting, better communication, as I see it, no 
new powers, not even a proposal for the legislature to consider 
powers, not even a proposal for a commission, even if we are 
not ready yet for what it would take to establish a commission.
    That is why I must ask you, given the timeframe, and with 
the certainty that you shouldn't be waiting for the Congress, 
whether or not these local jurisdictions on their own should be 
now establishing a Metro safety commission, whether you see any 
reason, any impediments to such a commission being established.
    Mr. Connolly [presiding]. If the respondents could be 
concise, because the time of the gentlelady has expired.
    Ms. Jeter. Ms. Norton, if I may, that is one of the 
problems that has been occurring and continues to keep 
occurring. We have commissions upon commissions. We have 
committees upon committees.
    Ms. Norton. This is not a study commission. This would 
replace the TOC.
    Ms. Jeter. Even to replace the TOC, I mean, replacing the 
TOC is only one aspect of it. There needs to be and there 
should be concise procedures and standards in place now, if no 
other time. We have had--you know, we talk about the nine 
deaths in the public, but prior to that we had deaths of 
employees, and nobody did anything. There has been no study, 
there has been no group, there has been nobody coming together 
to talk about what needs to be done. And now all we do is 
continue.
    Mr. Gunn did not have to come here to tell WMATA what it 
needed to do, and it will not listen to those individuals that 
are inside, that are here, that are doing the work, that 
continue to say we need to start doing thus. They have that 
already.
    Ms. Norton. Ms. Jeter----
    Mr. Connolly. The time of the gentlelady has long expired. 
We may have an opportunity to have another round.
    Mr. Clay of Missouri.
    Mr. Clay. Thank you so much, Mr. Chair, and let me thank 
you for holding this hearing.
    You know, thousands of residents utilize the Metro system 
daily, and many of these riders are our very own Federal 
workers who make our jobs possible, and so to ensure the safety 
of them and others I am looking forward to finding solutions to 
existing problems and addressing some ongoing concerns.
    With that, let me start with Mr. Benjamin. I am interested 
in the progress of the Dulles rail extension project. I am 
aware that this is a joint venture between WMATA and several 
other authorities in that initial funds are being raised 
through toll increases and commercial taxes. However, looking 
further down the line, will WMATA's current financial troubles 
affect future phases of the extension?
    Mr. Benjamin. Mr. Clay, that extension is fully funded by 
the State of Virginia and is being carried out by the Airports 
Authority, so all funding issues are Virginia issues as opposed 
to Washington Metro issues.
    Mr. Clay. How about the projected ridership? How does that 
compare to other lines that are in existence today?
    Mr. Benjamin. Mr. Clay, I am not really extremely familiar 
with that project because it is not a project which the board 
has been intimately involved in because it is a Virginia 
project. I don't know if Mr. Sarles knows that any better than 
I.
    Mr. Clay. But you will maintain it once it is up and 
running?
    Mr. Benjamin. At some point the built system will be turned 
over to Metro, and Metro will operate it and maintain it.
    Mr. Clay. Mr. Sarles, can you inject anything into that?
    Mr. Sarles. I can't help you out much with the ridership. 
That hasn't been my focus in the first few weeks. It has really 
been on safety and state of repair.
    I will add one thing, though. While the funding is from 
Virginia, and I guess the Airports Authority for the 
construction, ultimately with WMATA taking over the operations 
and maintenance, we all have to keep in mind that there will 
have to be more funds made available for operations and 
maintenance so that it is maintained in a state of good repair 
from the very get-go and not left to deteriorate.
    Mr. Clay. Let me also ask about another concern, the 
perceived ability to keep up with safety issues. We cannot add 
ridership on this new line without being able to ensure their 
safety. How can we be sure that the current backlog of 
maintenance needs affecting the Metro system will not affect 
the Dulles extension?
    Mr. Sarles, do you want to take a stab at it? Or maybe I 
should hear from Ms. Jeter. She may have something to say about 
it.
    Mr. Sarles. The existing system has to be brought back up 
the a state of good repair and the money has to be made 
available to do that. If you ultimately don't bring the 
existing system up to a state of good repair, it is going to 
affect any new construction.
    Mr. Clay. Ms. Jeter, anything to add about a new line 
coming on and being able to maintain it and make it safe?
    Ms. Jeter. I think with a new line you have probably less 
worries than you do with old lines. With a new line coming on, 
you know, the equipment is new, it works like it is supposed 
to, and everything is done according to plan. It is only when 
the lines become aged and older that you have more problems.
    I honestly, from the operators and knowing them, I don't 
believe that if WMATA--if WMATA takes steps immediately, that 
should not be a concern, Mr. Clay. It should not be a concern 
on whether or not the lines are going to act effectively or 
whether WMATA can effectively run new lines. I know they can do 
that, but they do have to make some changes quickly.
    Mr. Clay. Thank you.
    Mr. Sarles, although you have had only a short time in your 
current role as interim general manager for the system, your 
testimony states that you have worked in public transit for 40 
years. From your perspective, do you believe that the agency's 
general managers have enough authority and enforcement power?
    Mr. Sarles. Yes.
    Mr. Clay. Yes, you do. OK. Do you believe that the general 
managers are armed with enough information on a daily basis to 
make informed decisions?
    Mr. Sarles. I believe that the information systems at WMATA 
have to be improved significantly. Safety is an example, where 
the incident reporting is not systematically kept. There are 
efforts underway, and we hope this summer to have a system in 
place that can systematically record all that incident 
information. So the answer to your question is there is work to 
be done in that area.
    Mr. Clay. Thank you so much for the panel s response.
    I yield back, Mr. Chairman.
    Mr. Connolly. I thank the gentleman.
    By the way, with respect to the gentleman's question on 
rails to Dulles, it is a $5.5 billion project. It is proceeding 
smartly. It is under construction as we speak. It is important 
to note that the original Metro system was built with 80/20 
Federal money. Of the construction, 80 percent was financed by 
the Federal Government. When rail to Dulles is completed, 16 
percent of the cost will be borne by the Federal Government. If 
you want to see a dramatic retreat in terms of Federal funding 
for transit in the construction area, rail to Dulles is a great 
example.
    The first time we ever talked about rail to Dulles in a 
Federal document was 1962. Forty-seven years later we signed 
the full funding grant agreement, which I guess is warp speed 
in the Federal context.
    Mr. Clay. And, Mr. Chairman, that really highlights the 
point that the Federal Government depends----
    Mr. Connolly. Yes.
    Mr. Clay [continuing]. Quite a bit on this system, and they 
should also have a share----
    Mr. Connolly. To the premier airport in the Nation's 
Capital, essentially the Federal Government has said, You think 
it is a good idea, local government, you pay for it. And it is 
entirely borne by Virginia entities, including the Airports 
Authority, who have to figure out how to pay for this.
    Mr. Clay. Perhaps we can find something to share with the 
gentleman.
    Mr. Connolly. And I think it is important, the point Mr. 
Sarles and Mr. Benjamin made. Once the Metro system accepts the 
fully constructed line, then again the local jurisdictions--Ms. 
Norton's, mine, Mr. Van Hollen's--we bear the full subsidy cost 
of bringing that into the system. The Federal Government bears 
zero responsibility, which is the problem I have with the 
current system.
    Let me ask Mr. Sarles and Mr. Benjamin, it has been 
suggested that the real problem with Metro is mismanagement and 
organization and communication; it really isn't a matter of 
resources. Mr. Sarles, welcome. I know you are new, but I would 
welcome your and Mr. Benjamin's take on that. Is that true that 
really it is not the whole question of safety and performance, 
really isn't a question of resources?
    Mr. Sarles. First impressions, 3 weeks----
    Mr. Connolly. Yes.
    Mr. Sarles [continuing]. Is that it is a combination of the 
two. I think that when you have an organization that maybe has 
not had the full amount of resources available to it to spend 
on state of good repair it begins to have an effect on the 
employees and the management in terms of the ability to really 
do what they believe is necessary.
    Then you add on top of that the fact that there have been a 
number of changes in leadership, you are losing people who have 
30 years experience getting ready to retire, not necessarily 
replaced, one of the first things I am doing is trying to just 
fill the holes in the organization where we have lost that 
experience, we have lost that leadership, to create a 
foundation again to build it back into the organization it 
should be.
    Mr. Connolly. Mr. Benjamin.
    Mr. Benjamin. I would echo Mr. Sarles' comment that it 
isn't one or the other, it is really both. Clearly, if we have 
not made the investments that we need to make in replacing our 
infrastructure and our equipment, that is going to have an 
effect on safety. On the other hand, we also have a clear 
problem with our safety culture. We do not live safety from the 
general manager all the way down to the last track worker and 
operator. It is something that needs to be improved. Clearly, 
also our communication needs to be improved.
    So we have to be working in both areas, and neither one by 
itself will be sufficient.
    Mr. Connolly. Can I ask you each briefly: is it a fair 
proposition, though, to say what is missing at the table in 
terms of subsidies, operating subsidies on a day-to-day basis, 
is Federal dollars?
    Mr. Benjamin. I certainly agree that additional sources of 
funding would be very, very good, and having the Federal 
Government participate by adding funding would tend to make 
some of the decisions, such as the ones we have right now, an 
awful lot easier.
    Mr. Sarles. I agree with that.
    Mr. Connolly. Yes. I think we have to recognize the 
uniqueness of the relationship. This is not Wyoming or--I mean, 
this is the Nation's Capital.
    Ms. Jeter, would you say that personnel cuts might have 
some impact over time on safety and efficiency and operational 
issues, and that those personnel cuts are all about saving 
money?
    Ms. Jeter. Yes. Yes, I would. I think that any time you 
make not only personnel cuts but severe service cuts you are 
weakening your system.
    Mr. Connolly. And would you say that all of that is related 
to the issue of resources?
    Ms. Jeter. Yes. And I do agree that there needs to be 
operating money.
    Mr. Connolly. Mr. Bassett, one of the critiques in the 
past, especially in a series of Washington Post stories, was 
that your organization sort of lacks teeth, doesn't really have 
any binding powers over the safety operations of Metro, and 
that almost consistently Metro has denied you and your 
colleagues and entities controlled by you access to the system 
in a timely fashion whereby you could detect or report on or 
make recommendations about potential safety violations. What is 
your take on that critique?
    Mr. Bassett. I think the FTA administrator did an excellent 
job outlining the regulatory framework under which we operate 
earlier today and the limitations we face in being able to 
regulate a rail transit system, which are very similar to the 
regulatory limitations that most other State safety oversight 
agencies face, so I don't believe we are unique in that regard.
    In regards to WMATA not permitting access to the Tri-State 
Oversight Committee's auditors, that was really an issue that 
revolved around our ability to access the live right-of-way. We 
were attempting to conduct an audit on whether or not the 
Authority was complying with its track worker safety protection 
rules, and while it was covered in the media, I am happy to 
note that, through increased coordination with both the Board 
of Directors and WMATA leadership, that issue has been 
satisfactorily resolved, and we were, in fact, able to go out, 
complete the audit, and the audit was released on our Web page 
in December noting a number of issues and deficiencies in terms 
of gaps between operating practices and what was written in the 
rule book.
    So while I believe it is a very significant concern, I 
think coordination between our groups has addressed that, and 
the proof is in the proverbial pudding of the audit we were 
able to generate.
    Mr. Connolly. I thank you. My time is up.
    The gentlelady from the District of Columbia is again 
recognized for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Chairman, I want to join you in the notion of operating 
subsidies, and I want to also note what it took for you to get 
the rail line to Dulles. I don't want anybody to leave the 
table with raised expectations. It took us 7 years even to get 
the thing authorized over here. We didn't get the first $150 
million, and I am convinced we wouldn't have gotten it out if 
the people hadn't been killed. So as much as it is fair, 
particularly given the utter dependence of the Federal 
Government and the way in which Metro is running out of money, 
I don't want anybody to leave this table, go back to their 
jurisdictions, and say even the Congress thinks we ought to 
have operating subsidies.
    I can tell you this, that the entire region does, but most 
of the Congress didn't even think that we should be paying for 
capital spending, even after we grounded year after year into 
their heads that we were talking about Federal employees.
    Look, you have all testified that there should be an 
independent TOC. My question was a followup, simply said would 
that mean--I am calling it by another name, the Metro safety 
commission.
    Mr. Benjamin, you see the problem is I am dealing with the 
people who would be regulated. We don't have anybody at the 
table who is truly independent. And in order for there to be a 
commission, somebody would have to put in a proposal at the 
next session of the legislatures for a commission. And I can 
tell you one thing: when we told them to put in a proposal for 
the States to get their share to match our $150 million, it 
even took them some time to do that. D.C. did it right away. It 
took Maryland and Virginia 2 or 3 years to do it. And already 
we have been waiting a full year after people were killed and, 
Ms. Jeter is right, after employees have been killed for 10 
years before that.
    So I would like to see a Metro commission if we are going 
to have one, an independent TOC, call it what you want to, come 
through the respective State legislatures this coming 
legislative season.
    Does anyone see any reason why that should not occur? Let 
me put it that way, without asking you to have someone regulate 
you. Any of you see any reason why that should not occur?
    [No response.]
    Ms. Norton. Could I ask you, Mr. Sarles, the lives were 
lost in 1970's vintage cars. You only get $150 million per year 
from the government. Is all of that money being used to replace 
those cars that went up like an accordion, whereas the somewhat 
later cars that was behind it, no one was killed? And does that 
mean that the entire $150 million per year is going to cars, or 
when will the cars, those 1970's cars, be gone?
    Mr. Sarles. First, to answer your question about will the 
$150 million every year go solely to the cars, the answer to 
that is no. In addition to paying for the replacement of the 
1,000 series cars, it will also go to basic state of good 
repair, tracks, signals, that sort of thing.
    The time it takes--and we are about ready to recommend to 
the board very shortly that we award the contract--it takes 3 
to 3\1/2\ years to get the first cars. That is just the nature 
of the industry, because they have to be designed, the pilot 
cars have to come out, they have to be thoroughly tested, and 
then manufacturing starts.
    Ms. Norton. So the cars haven't even been manufactured that 
we are going to buy?
    Mr. Sarles. No, ma'am.
    Ms. Norton. They are not sitting on the line waiting to 
come and we have another 3-year wait on cars that should have 
been out of service decades ago.
    I do want to say, Ms. Jeter, how much I appreciate what the 
Union did. It is the Union that made a common-sense suggestion, 
but it is a suggestion that came out of the Union's experience 
that at least those 1970's cars not be made the caboose and the 
front end. And when I asked the NTSB at hearings we had earlier 
why they hadn't made that common-sense suggestion, they replied 
that, you know, we try to make suggestions for what is the 
perfect solution.
    The committee that is designing the legislation that is 
now, frankly, waiting to go to the floor for Metro system 
safety throughout the United States has taken what happened 
with respect to Metro and we now are requiring the NTSB not to 
give us, as they did for 10 years, the most costly suggestions, 
knowing full well that WMATA did not have the money, rather 
than using their expertise also to give interim suggestions 
that might have saved lives.
    That is why I respect, Ms. Jeter, the testimony of the 
Union, because you do know, from everyday experience, what this 
system needs. You seem to believe that the WMATA board is a 
central part of the problem, but if we were not to have this 
WMATA board with all these jurisdictions having a say have you 
thought about what kind of system we would replace it with, 
since after all they are all putting a lot of money into this 
system each year?
    Ms. Jeter. Let me say this: I know that the board, the 
WMATA board, is necessary because of the three jurisdictional 
type of governance that we have. I understand that they are 
necessary. I question their role, and the reason why I question 
their role is simple: we have had probably, what, six or seven 
general managers since the deaths began, and it has not 
stopped. I don't see a line item in the budget anywhere that 
talks to safety or specifically says that this is for safety. 
We don't have any budget line items there.
    And I am frustrated, because where individuals sit and they 
come in front of you and they talk about what they want to do 
and all the good things that are supposed to happen, when we go 
back and we watch it every day it does not happen. I think that 
board has a direct responsibility to make sure that occurs, and 
it has not happened.
    Mr. Connolly. Is there anyone else who wishes to address 
that question, because the time of the gentlelady has expired.
    Mr. Sarles. I would just like to say, with regard to what 
Jackie just mentioned, that when we discuss with the board 
tomorrow the revised budget, I specifically am putting money in 
there for safety-related issues, both on the operating and 
capital side.
    Mr. Alpert. Could I also----
    Mr. Connolly. Mr. Alpert.
    Mr. Alpert. If I may, the Riders Advisory Council doesn't 
have a position about the board governance specifically. My 
personal opinion is that I think that, while changes might be 
useful, I think that is not really going to get at the heart of 
the issues. When we look at, for example, the safety, and 
speaking to the TOC questions from earlier that Ms. Norton was 
making, the board was very surprised to find out that Metro had 
not permitted the TOC access to the tracks, and they 
immediately jumped in and took strong action to ask the TOC to 
bring to them any issues that might come up where Metro would 
deny them access to something in the future.
    I think that sort of reveals two things that troubled me. 
One is the sort of general lack of transparency from the 
Authority in the past about what is going on within it as far 
as these issues. Second, I am a little bit baffled that the TOC 
sort of went for several months being stymied and didn't 
actually tell the board members or tell the public, and it 
wasn't really until the Washington Post sort of found it out 
through FOIA requests that anything happened. I know there may 
be legal restrictions on what they can do and that sort of 
thing, but it would seem that we need the TOC to at least feel 
free, if they are feeling like something is really wrong, to 
jump up and down and tell the board, the press, their friends, 
whatever, you know, there is something wrong here.
    Likewise, you know, it was good to hear that Mr. Sarles was 
promising to have some metrics that would be revealed to the 
riders. I think that, from the point of view of the riding 
public, we still don't really know what steps Metro is going to 
take to fix things. There is a lot of information that people 
don't have about what is going wrong, and I think that may be 
why there is some frustration that I perceive from you, as 
well, that what exactly do we need to do to fix this, what is 
the problem here.
    I think we need that transparency into information, and I 
don't think the board is necessarily restricting it, except 
maybe with the Gunn report issue, which I would like to see 
public as well, but generally some board members tell me that 
they don't have a lot of this information either. Sometimes 
they are frustrated that they can't get it.
    Mr. Connolly. Thank you.
    Mr. Bassett, were you----
    Mr. Bassett. If I could just briefly address the 
transparency aspect of Mr. Alpert's comments, it is a 
significant priority for our executive leadership to ensure 
that the TOC going forward is transparent and accountable. 
After the July hearing of last year and Ms. Norton's comments, 
we were able to secure Web site space on the D.C. DOT Web page. 
We are now working on establishing an independent Web page that 
is solely for the TOC so that you won't have to go through an 
agency Web page.
    I think it has been a significant improvement over the last 
few months that we have been able to coordinate so closely both 
with our executive leadership at our home agencies, as well as 
with the board and the WMATA executive team.
    Mr. Connolly. Thank you. And I thank the gentlelady.
    I want to thank our distinguished panel of witnesses.
    Without objection, the record shall be left open for 7 days 
so that Members may submit information for the record.
    Without objection, I will enter this binder of hearing 
documents into the committee record.
    The committee stands adjourned.
    [Whereupon, at 12:52 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Mike Quigley and Hon. 
Gerald E. Connolly, and additional information submitted for 
the hearing record follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
